<html>
<title> - S. 556, THE BIPARTISAN SPORTSMEN'S ACT OF 2015</title>
<body><pre>[Senate Hearing 114-329]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-329

             S. 556, THE BIPARTISAN SPORTSMEN'S ACT OF 2015

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 12, 2015

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]               

         Available via the World Wide Web: http://www.fdsys.gov
         
                               ___________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
94-049 PDF                    WASHINGTON : 2016                         
               
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>  
              
               
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLY MOORE CAPITO, West Virginia
                     Karen Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Christopher Kearney, Budget Analyst and Senior Professional Staff 
                                 Member
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator of Alaska.....     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                                WITNESS

Ellis, Steve, Deputy Director, Operations, Bureau of Land 
  Management, U.S. Department of the Interior....................     4
Weldon, Leslie, Deputy Chief, National Forest System, Forest 
  Service, U.S. Department of Agriculture........................    16
Crane, Jeff, President, Congressional Sportsmen's Foundation.....    24
Fosburgh, Whit, President and Chief Executive Officer, Theodore 
  Roosevelt Conservation Partnership.............................    37

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

America's Hunting, Angling, Shooting, and Conservation Community
    Letter for the Record........................................    26
Cantwell, Hon. Maria
    Opening Statement............................................     2
Crane, Jeff
    Opening Statement............................................    24
    Written Testimony............................................    29
    Responses to Questions for the Record........................   168
Daines, Hon. Steve
    Statement for the Record.....................................   277
Ellis, Steve
    Opening Statement............................................     4
    Written Testimony............................................     7
    Responses to Questions for the Record........................   140
Fosburgh, Whit
    Opening Statement............................................    37
    Report by the Theodore Roosevelt Conservation Partnership 
      entitled ``The Land and Water Conservation Fund and 
      America's sportsmen and women''............................    39
    Written Testimony............................................    56
    Responses to Questions for the Record........................   273
Murkowski, Hon. Lisa
    Opening Statement............................................     1
The National Wild Turkey Federation
    Letter for the Record........................................   278
S. 556, the Bipartisan Sportsman's Act of 2015
    Statement for the Record.....................................   103
Trout Unlimited
    Statement for the Record.....................................   280
Weldon, Leslie
    Opening Statement............................................    16
    Written Testimony............................................    18
    For the Record Response to Senator Barrasso..................    68
    For the Record Response to Senator Gardner...................    80
    Responses to Questions for the Record........................   149
Wilderness Watch
    Letter for the Record........................................   281

 
             S. 556, THE BIPARTISAN SPORTSMEN'S ACT OF 2015

                              ----------                              


                        THURSDAY, MARCH 12, 2015

       U.S. Senate Committee on Energy and Natural 
                                          Resources
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    Chairman. The Committee will come to order this morning.
    Welcome to those who have joined us on the panel. We are 
here to consider legislation that addresses the needs and the 
priorities of millions of American sportsmen and sportswomen. 
After falling just short in 2012 and 2014 with similar 
legislation, I am optimistic the third time is going to be the 
charm and that we will finally enact legislation on the subject 
in this Congress.
    So let's get started.
    I recently introduced S. 405, the Bipartisan Sportsmen's 
Act, along with my friend and colleague here on the Committee, 
Senator Heinrich. Thank you for your leadership on this.
    I also thank the bipartisan leadership of the Sportsmen's 
Caucus by Senators Risch, Manchin, Fischer and Heitkamp and 
there are 12 additional members who have added their support to 
the bill.
    We introduced a broad bill to show the Senate what we 
really seek to accomplish here. Now we are focused on moving it 
through the legislative process. For the first time we are 
going to be doing so under regular order which, I think, will 
also bode well for its success.
    We are considering this morning S. 556 which includes the 
provisions of our broader bill that fall under the Energy 
Committee's jurisdiction plus one that falls under the 
jurisdiction of the Judiciary Committee. The Environment and 
Public Works Committee will soon hold a hearing on the 
provisions within its jurisdiction. Assuming that all goes 
well, we will move to mark ups in the near future, and then we 
plan to reassemble one bill for consideration by the full 
Senate. So that is the process which I think is only fair to 
outline to colleagues.
    I also want to speak to the substance of the legislation 
and explain why it is so important to so many of us.
    Sportsmen and sportswomen come from all around the country 
from big cities, from small towns in the north, from the south, 
from here in the east and of course, most certainly in our 
western states. For many of us outdoor activities are just a 
part of our life. I grew up in a family where we went out 
hunting in the fall and we fished as long as there were 
opportunities for fishing which was hopefully most of the year. 
These were family traditions passed on from family to family.
    I think, certainly coming from the State of Alaska where we 
see so many who move to our state to enjoy these outdoor 
opportunities whether it is for recreation or whether it is for 
ensuring that there's food on the table, this has been part of 
who we are, a definition, truly, of ourselves. Anyone who has 
been to Cabela's or a Bass Pro Shop or Mountain View Sports in 
Anchorage or any other outdoor store in Alaska knows that 
sportsmen and women play a vital role in our economy. That is 
true in terms of retail sales, salaries, wages, government 
revenues and it is true in all of our 50 states.
    That is where our Bipartisan Sportsmen Act comes in. It 
builds on our previous efforts and adds several new provisions 
to increase access and provide new opportunities for Americans 
to enjoy our Federal lands.
    Our bill includes a provision that I have supported for 
years to ensure that Bureau of Land Management and our National 
Forest lands remain open to hunting, fishing and other 
activities as a matter of law unless closed so that our 
sportsmen and women know they are welcome there. It also 
includes Senator Heinrich's Hunt Act which I suspect he will be 
eager to discuss in further detail.
    Another important provision relates to filming on public 
lands. You have heard me mention at a couple hearings now the 
obstacles that we place on individuals who want to do nothing 
more than to film, to take pictures. Working to minimize the 
costs and the bureaucratic process that individuals and small 
groups must face is important.
    I think we have got a good bill. We have built a strong 
bipartisan coalition around it, and I am hopeful that after a 
productive hearing we will be able to add some new co-sponsors. 
I know we would sure love to have as many members of this 
Committee sign on.
    I will now turn to our Ranking Member, Senator Cantwell, 
for her comments this morning.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Murkowski. I 
appreciate you calling this important hearing and your 
leadership. I too look forward to hearing from our witnesses 
today.
    As you mentioned, although similar sportsmen-related 
legislation has been considered on the floor in the past two 
Congresses, this is the first time we have discussed this 
package in Committee. I hope we can use this opportunity to 
further examine and improve on some specific provisions in the 
legislation.
    I would like to take this opportunity to discuss the larger 
issue of stewardship, what that does for us, and how we can 
expand recreational opportunities for sportsmen on public 
lands.
    In the State of Washington, we are fortunate to live among 
many of America's most iconic national parks, forests and 
wilderness areas. These lands are public treasures that improve 
our quality of life dramatically, give us important 
recreational opportunities--including hunting and fishing--and 
strengthen our economy. Last year visitors spent a combined 33 
million days on Federal lands in Washington State and in doing 
so spent over $1.3 billion.
    According to a recent report prepared by the Jackson 
Foundation, in Washington, in the State of Washington alone, 
outdoor recreation provides an estimated 227,000 direct jobs. 
That is an amazing number, and it generates over $7 billion in 
wages and salaries. This is a very important part of our 
economy, and we should make sure that we continue to focus on 
it.
    The best thing we can do to continue to protect open spaces 
and wildlife habitat for hunting, fishing, and other 
recreational opportunities is to ensure that the Land and Water 
Conservation Fund is permanently authorized and fully funded. 
To achieve this goal, I support language in the bill to set 
aside a portion of the Land and Water Conservation Fund each 
year to secure public access to Federal lands for hunting, 
fishing, and recreational uses. So if we allow the Land and 
Water Conservation Fund to expire, which we don't want it to 
do, there will not be any money for the sportsmen that we want 
to help through this particular legislation. The Land and Water 
Conservation Fund is the country's most successful law 
benefiting sportsmen, and it needs to be reauthorized.
    In my home state, the Land and Water Conservation Fund has 
helped to protect and improve over 133,000 acres of State land 
and local park, and recreational areas, as well as help protect 
public lands, national parks, and forests. Earlier this year a 
strong bipartisan group of senators supported reauthorization 
and permanent funding for the Land and Water Conservation Fund 
in a vote on the Senate floor. I look forward to working with 
you on this issue as these pieces of legislation move through 
Congress.
    This bill includes a separate land acquisition provision, 
the reauthorization of the Federal Land Transaction 
Facilitation Act. While I support the reauthorization, I am 
concerned the language in the bill may fundamentally alter the 
purpose of the act.
    This law authorizes the Bureau of Land Management to sell 
Federal lands identified as appropriate for sale through a 
robust planning process. It then uses the proceeds from these 
sales to acquire--from willing sellers --privately owned lands 
within the Federal conservation areas. The BLM's authority to 
sell land under this law expired in 2011, and I have supported 
past efforts in the Committee to reauthorize it.
    I am concerned, however, that instead of using the proceeds 
from these sales to acquire and protect public lands, this bill 
siphons some of those proceeds off to the Treasury for deficit 
reductions.
    This is a policy shift from the version of the bill this 
Committee has previously supported, where the Federal land sale 
proceeds were used to acquire other important lands for future 
generations. As such, I hope we will amend this bill to reflect 
language we have previously supported in this Committee.
    Once again, I want to thank you personally for your 
leadership on making sure that bow hunters are covered in this 
legislation. Thank you for giving them parity with other 
hunters. I very much appreciate that.
    I believe a clean reauthorization of the Land and Water 
Conservation Fund is a subject that is going to be very 
important for sportsmen in general.
    Along those lines, I also want to note that protecting 
hunting and fishing opportunities on public lands is an 
important priority. But we also have to make sure that we are 
encouraging and protecting other recreational uses on public 
lands. According to the Bureau of Land Management, 99.98 
percent of BLM lands are open to hunting today, and almost 99 
percent are open to shooting.
    While the Forest Service does not have detailed land use 
statistics available, the vast majority of national forest 
lands are open to hunting, fishing, and shooting. Federal land 
use policies should be designated to encourage getting as many 
people as possible out into their national parks, forests, and 
public lands.
    It is my understanding that both the Forest Service and BLM 
open lands they manage for hunting and fishing and shooting and 
other recreational uses unless an area is specifically closed. 
With that in mind it is simply worth noting that land use 
statistics do not indicate a policy of excess closure of 
Federal lands. So if we are going to legislate new management 
policies we must ensure that we are protecting all recreational 
lands.
    I look forward to hearing from the witnesses this morning. 
Again, Madam Chair, thank you for convening us for this 
important topic.
    Chairman. Thank you, Senator Cantwell.
    I note that we have a good showing of members here this 
morning. If folks have opening statements they would like to 
include as part of the record, we would certainly encourage 
that.
    I would like to go to our witnesses this morning, hear from 
them and then we will enter into a round of questions.
    We will begin at this end. I will introduce all of our 
witnesses to the Committee, and then we will proceed.
    Mr. Steve Ellis is the Deputy Director for Operations for 
the Bureau of Land Management. Welcome, Mr. Ellis.
    Ms. Leslie Weldon is the Deputy Chief of the National 
Forest Service. We appreciate you being here this morning and 
the testimony you will provide.
    Mr. Jeffrey Crane is the President of the Congressional 
Sportsmen's Foundation. Many of us see you around here in 
Washington, DC, as you speak on so many of the issues that are 
contained within the proposal in front of us.
    At the end of the table we have Mr. Whit Fosburgh. Welcome 
to the Committee. He is the President and CEO of the Theodore 
Roosevelt Conservation Partnership. So we are pleased to have 
you join us as well.
    With that, Mr. Ellis, if we can start with you, please.

 STATEMENT OF STEVE ELLIS, DEPUTY DIRECTOR, OPERATIONS, BUREAU 
OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR ACCOMPANIED 
BY RUSSELL WILSON, CHIEF OF REGULATIONS AND SPECIAL PARK USES, 
                     NATIONAL PARK SERVICE

    Mr. Ellis. Alright. Good morning, Chairman Murkowski, 
Ranking Member Cantwell and members of the Committee.
    I would like to thank you for the opportunity to discuss S. 
556, the Bipartisan Sportsmen's Act. I am Steve Ellis, Deputy 
Director for Operations for the Bureau of Land Management.
    I'm accompanied this morning by Russell Wilson. Russell is 
back here. He's the Chief of Regulations and Special Park Uses 
for the National Park Service, and he will be available to 
answer questions that are specific to the Park Service here 
this morning.
    I want to thank you for holding this hearing. You know, 
recreational use and access on the public lands are among our 
highest priorities. Recreational opportunities on public lands 
provides significant economic benefits. They promote health and 
fitness, engage our youth and connect Americans with their 
public lands.
    We strongly support the goal of enhancing opportunities for 
recreation including hunting, fishing and target shooting on 
the nation's public lands.
    I've submitted my written statement for the record, and 
I'll briefly discuss each of the bills' major sections.
    Section 101, the BLM manages land, public land, according 
its multiple use and sustained yield mission. Recreation is a 
key element of that mission, and there are countless examples 
of excellent fishing and hunting opportunities on the public 
lands. Section 101 of the bill contains several provisions to 
facilitate these activities on public lands, a goal the 
Department strongly supports. We would like to work with the 
sponsor on some of the provisions that seem to duplicate some 
of our existing authorities, so that may cause confusion with 
existing laws or result in unintended legal consequences.
    Section 102 would establish fees to authorize access to 
Federal land for small commercial film crews. We welcome 
individuals, groups and companies who wish to film the beauty 
and the bounty of the nation's public lands. The Department is 
concerned that this section does not provide the discretion 
needed to manage film crew permits most efficiently and 
effectively. While we cannot support this section as it's 
currently drafted, we would like to work with the sponsors to 
manage commercial filming activities in a way that avoids 
disruption to visitor activities and damage to resources.
    Section 103 amends the Equal Access to Justice Act, to 
establish reporting requirements for Federal agencies. We 
support efforts to increase the transparency of the EAJA 
process but we generally defer to others in this area.
    Section 104 would prohibit the National Park Service from 
promulgating and enforcing any regulation that prohibits 
transporting inoperable bows and crossbows across any unit of 
the National Park System. Current Park Service regulations 
prohibit possessing a loaded weapon in a National Park System 
unit, but do not apply to the transport of any unloaded weapon. 
The Department objects to this section because it is 
unnecessary; however, if the committee decides to include this 
provision, we would recommend that it be amended to define the 
term ``vehicle'' and to require that bows and crossbows, as 
well as arrows, be stored in a manner that prevents their ready 
use.
    Sections 201 and 203 concern the Land and Water 
Conservation Fund and FLTFA which are among our most effective 
tools for expanding recreational access and acquiring lands to 
improve management. The bill amends the Land and Water 
Conservation Fund to create, set aside, for public access. We 
strongly support the acquisition of easements, of rights-of-
ways and lands to enhance recreational access, and the 
Administration supports full and mandatory funding of the Land 
and Water Conservation Fund.
    The bill would also permanently reauthorize FLTFA, an 
expired authority under which BLM sold public lands identified 
for disposal and agencies used the proceeds to acquire certain 
higher priority lands from willing sellers. We strongly support 
this section and would also recommend it be modified so that 
all funds obtained can be directed toward acquisitions under 
the Act.
    Section 202 would direct agencies to develop a list of 
priority parcels for recreational access. We'd like to thank 
Senator Heinrich for his work to make this section's reporting 
requirements feasible for the agencies. The Department supports 
the objectives of the section but would like to work with the 
sponsor on technical changes to ensure these requirements can 
be met with existing funding.
    Finally, my testimony also mentions our legislative 
proposal for a BLM Foundation which would help provide 
additional opportunities to work with our partners and the 
public on recreation projects, among other things.
    Thank you for the opportunity to testify, and we look 
forward to continuing to work with you on these important 
issues.
    [The prepared statement of Mr. Ellis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman. Thank you, Mr. Ellis.
    Ms. Weldon, welcome.

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you.
    Madam Chairman, Ranking Member Cantwell, members of the 
Committee, thank you for the opportunity to present the views 
of the U.S. Department of Agriculture on Senate Bill 556, the 
Bipartisan Sportsmen's Act of 2015.
    I've provided my written testimony for the record.
    We deeply appreciate the interest of the bill's sponsors 
and of the Committee in promoting the traditions of 
recreational hunting, fishing and shooting on the national 
forests and grasslands and working with us to improve on past 
versions of the bill.
    The Forest Service is proud to be stewards of 193 million 
acres of open space where Americans can go play outdoors, and 
we estimate supporting approximately 190,000 jobs and 
contributing around $13 billion to the National Gross Domestic 
Product related to outdoor recreation on the national forests 
and grasslands.
    The national forests are now and have always been open to 
hunting, fishing and shooting unless specifically closed for 
local driven reasons. Without the vast public land system we 
have in this country the tradition and opportunities that 
regular people enjoy today to hunt, fish and shoot would be 
greatly lessened and the future of these sports put in 
jeopardy.
    I want to reiterate our commitment to the letter and the 
spirit of the memorandum of understanding we hold with the 
Federal Lands Hunting, Fishing and Shooting Sports Roundtable 
which mirror many of the components of this legislation.
    I must also acknowledge the strong partnership we have with 
state wildlife and fish agencies which regulate the fish and 
game populations that we pursue.
    While we wholeheartedly embrace the activities of hunting, 
fishing and shooting, the USDA has concerns with the 
consequences of the specific language in some of the provisions 
of the bill and we would like to work with the Committee to 
address them.
    For example, with our vast mission to protect the health 
and diversity of America's forests and grasslands for current 
and future generations, we're cautious about any requirements 
that increase administrative workloads as some components of 
the bill would do. We continue to manage these lands for 
sporting and other types of recreation and consider the effects 
of activities on recreational use and our planning processes as 
we currently do which we believe is within line with the intent 
of this legislation.
    We will also continue to pursue opportunities to improve 
public access where it is lacking or inadequate through active 
involvement of local line officers, working with local 
communities and land owners. With limited staff and expertise 
we're concerned that additional reporting requirements would 
divert staff away from pursuing better access on the ground.
    While we continue to manage units of the National 
Wilderness Preservation System for hunting, fishing and 
shooting, we need to guarantee that those who wish to engage in 
these sports can do so in a wilderness setting without 
encountering activities that compromise wilderness character. 
As such we hope to work with the Committee to ensure that 
language in the bill does not unintentionally alter management 
of these special places.
    We're attuned to the concerns over commercial filming and 
have worked hard through public outreach and meetings with 
industry groups to clarify our purpose and intent for revising 
our directives so that they provide for this important use and 
balance with protection of natural resources.
    Chief Tidwell recently, issued direction to the field 
ensuring that line and staff officers have common understanding 
of the agency's position regarding when permits are required 
and when they are not. We believe that the eventual final rule 
will adequately provide for a fair treatment of commercial film 
companies, large and small, as well as other permit holders 
such as outfitters and guides. We believe the final rule will 
be the best means for avoiding undesirable impacts on natural 
resources or wilderness character. At no time will a permit be 
required or a fee charged for families or individuals 
photographing the beauty of this country for their own use and 
enjoyment or for journalists engaging in news gathering.
    We support the intent of the provisions in this legislation 
regarding the Land and Water Conservation Fund as well as the 
Federal Land Transfer Facilitation Act and encourage further 
permanent set aside establishing full and mandatory funding for 
LWCF. These are proven tools to improve public access and 
conservation management.
    In our 2015 budget request we've sought $5 million from 
LWCF to specifically improve access to the national forests.
    Finally, the challenges we face continuing our legacy of 
conservation have never been greater as things become more 
complex. Facing these challenges under our current funding 
process for wildfire has made this more difficult. Since 1998 
fire staffing has increased to 118 percent while over the same 
period staffing for other important programs with the national 
forest have decreased by 39 percent, and we really support a 
bipartisan solution.
    With that, I am happy to answer any questions. And thanks 
again for allowing us to testify.
    [The prepared statement of Ms. Weldon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman. Thank you, Ms. Weldon.
    Mr. Crane, welcome.

 STATEMENT OF JEFF CRANE, PRESIDENT, CONGRESSIONAL SPORTSMEN'S 
                           FOUNDATION

    Mr. Crane. Good morning, Madam Chair, Senator Cantwell and 
members of the Committee, thank you for having me.
    As the Chair introduced me, I am the President of the 
Congressional Sportsmen's Foundation. I've had that privilege 
to serve in that capacity for 10 years. So, indeed, I have 
spent a lot of time up here on Capitol Hill working on issues 
important to the sportsmen and women in the country.
    Established in 1989, the Congressional Sportsmen's 
Foundation works with the largest, most active, bipartisan 
caucus on Capitol Hill, the Congressional Sportsmen's Caucus, 
nearly 300 members from the House and the Senate. I want to 
especially recognize our two current co-chairs in the Senate, 
Senator Jim Risch from Idaho and Senator Joe Manchin from West 
Virginia. Thank you, gentlemen, for leading this large caucus 
in the U.S. Senate.
    Madam Chair and Senator Heinrich, I'd like to recognize and 
thank you for your leadership in introducing S. 405 and making 
sure that that has bipartisanship all the way along the way.
    As you pointed out, there are 18 co-sponsors of this bill, 
equally divided between Republicans and Democrats. I think in 
this town we'd love to see more of that, and that's a great 
start. We're committed to working with you to try to encourage 
more of your colleagues from both sides of the aisle to join.
    In the last Congress, as you again pointed out, we came 
very close in terms of getting this bill done, 46 bipartisan 
co-sponsors were on a very similar version to S. 405. And 
stealing a philosophy that I use as an outdoorsman, ``Patience 
and persistence usually leads to success in the field.'' So I 
hope this is going to be our year.
    I'm a lifelong conservationist like you, Madam Chair. This 
was taught to me by my father and my grandfather. I'm 
endeavoring to pass it along to my daughters. We have a lot of 
deer meat and ducks and geese and fish in our freezer, and 
that's just a great opportunity for us to share in the bounty 
of the harvest.
    So this legislation is important to me, personally. But I 
think more importantly on behalf of the 40 million sportsmen 
and women who spend $90 million, billion, annually on our 
outdoor pursuits, this is good for conservation and indeed good 
for America.
    Conservation is critically important to hunters, anglers, 
boaters and shooters. The term conservation, as understood by 
us in this community, can be traced back to Gifford Pinchot, 
who was the first Chief of the U.S. Forest Service. Mr. Pinchot 
defined conservation as the ``wise use of the Earth and its 
resources for the lasting good of men.'' I think that's a 
really appropriate definition.
    Along with that comes the responsibility to be good 
stewards, as you pointed out, and be careful with the 
management of these resources. We are the original 
conservationists as sportsmen and women, and we remain 
dedicated to the stewardship of our conservation of natural 
resources.
    I would like to just add for the record part of my 
statement, a February 26th letter, with virtually every natural 
fishing and hunting organization endorsing this legislation. I 
think it came to every member of the U.S. Senate.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Quite simply, the overarching purpose of this bill is to 
ensure access and opportunity for hunters, shooters and 
anglers. According to polls, multiple polls, the main reason we 
lose hunters and anglers is there's not enough access to 
quality places to hunt and fish. With an ever increasing 
population in urban, suburban sprawl, it's imperative that 
access and opportunity are protected and even enhanced for 
future generations. In an effort to get our younger generations 
off the couch, off of behind the computer and outside, we need 
to make sure that there will be quality places for them to go 
and enjoy these traditions.
    Where there is access, let's embrace it. Let's put this 
certainty in there that it's going to remain for generations to 
come.
    Where there isn't, we should ask why and we should be 
working together to look for solutions. And I think this bill 
is directed, exactly, at that. After all, these are public 
resources, and these assets, these treasures of our American 
public lands, are there to be enjoyed, especially for low 
impact resource uses like hunting and fishing.
    I thank you again, Madam Chair and members of this 
Committee, for your leadership on this. I would be happy to 
answer any questions.
    Thank you.
    [The prepared statement of Mr. Crane follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman. Thank you, Mr. Crane. I appreciate it.
    Let's go to Mr. Fosburgh. Welcome to the Committee.

   STATEMENT OF WHIT FOSBURGH, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, THEODORE ROOSEVELT CONSERVATION PARTNERSHIP

    Mr. Fosburgh. Thank you very much. I appreciate the 
invitation to be here today. My name is Whit Fosburgh. I am the 
President and CEO of the Theodore Roosevelt Conservation 
Partnership which is a coalition of more than 40 national 
hunting and fishing conservation organizations dedicated to 
guaranteeing that all Americans have quality places to hunt and 
fish.
    First I want to thank the Chairwoman and Senator Heinrich 
for introducing the Bipartisan Sportsmen's Act and for bringing 
about this hearing today. Combined with the companion bill 
that's making its way through the Environment Committee, the 
Sportsmen's Act will make a direct and lasting contribution to 
hunting, fishing and conservation in America.
    Approximately 40 million Americans hunt and fish every 
year. Together hunters and anglers spend more than $90 billion 
to pursue their passions. They're a key part of the $646 
billion annual outdoor recreation economy and through excise 
taxes, license fees, permits and stamps, involuntary 
contributions and money and time, sportsmen have paid their way 
for more than 75 years. And as a result the American fish and 
wildlife management is really the envy of the world.
    But Federal policy and funding are key to maintaining the 
North American model of fish and wildlife conservation and 
helping people of all walks of life get a field. Hunters and 
anglers need two things to practice their sports, access and 
opportunity. They need places to go to hunt and fish and when 
they get there they need healthy populations of fish and game. 
S. 556 is important in both regards.
    Section 101 reiterates that our public lands are open for 
hunting, fishing and recreational shooting unless they're 
specifically closed and establishes a public process should it 
make sense to close certain areas. This is consistent with the 
way our public lands have been managed since the days of 
Theodore Roosevelt, but it provides our land managers with 
added clarity in this time of competing demands on our public 
lands.
    Sections 201 and 202 directly address the issue of 
decreasing access to our public lands. According to various 
studies lack of access is one of the most often cited reasons 
why people stop hunting and fishing. Part of this is due to the 
nonstop urban/suburban sprawl where farms and forests are 
turned into condos and malls.
    Another part of this is that fewer private landowners allow 
public access across their lands. The 2014 Farm Bill, and I'd 
give a little shout out to Senator Stabenow here, with its open 
fields provision was an important step providing incentives for 
private landowners to allow hunting and fishing and/or access 
on their lands.
    In the West more than 70 percent of hunters hunt on public 
lands. Nationally about half of all hunters hunt some of their 
times on public lands, but even those lands are getting harder 
and harder to access.
    In the old days you could go to ask most landowners to 
cross their fields to access the adjoining public lands, but as 
ownership patterns change such access becomes more difficult. 
Today it is estimated that more than 30 million acres of public 
lands are largely inaccessible to the public. Senator 
Heinrich's Hunt Act, Section 202, seeks to identify those land 
locked public lands and plan ways in which access to those 
lands might be improved.
    Complementary to the Hunt Act is Section 201, making public 
lands public which directed a small percentage of Land and 
Water Conservation Fund be dedicated to projects that target 
public access, expanding public access, to our public lands. 
For more than 50 years the Land and Water Conservation Fund has 
been an incredibly important program for conserving habitat and 
providing sportsmen's access, and Section 201 would help ensure 
this legacy of access will continue.
    I want to specifically note the work that Jeff Crane has 
done over the years in pushing public land, making public lands 
public and thank him for his persistence on this project.
    I also ask the Committee that I be able to submit a copy of 
this report entitled, ``The Land and Water Conservation Fund 
and America's sportsmen and women, a 50-year legacy of 
increased access and improved habitat.''
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    I should also note, and Senator Cantwell mentioned this, 
that the Land and Water Conservation Fund expires this year. At 
one point five percent of nothing is nothing, so we look 
forward to working with the Chairwoman and the Committee to 
make sure that LWCF is permanently reauthorized and fully 
funded.
    The final provision I wanted to discuss is Section 203, the 
Federal Land Transaction Facilitation Act. Before it expired in 
2011 FLTFA has strategically leveraged Federal land sales to 
fund about 39 Federal conservation projects across the West 
including various projects key to hunting and fishing. We think 
this needs to be reauthorized permanently and that those gains 
continue.
    The companion bill to S. 556 in the Environment Committee 
has other very important provisions for fish and wildlife and 
we look forward to working with that Committee as well to make 
sure that those get passed including such things as National 
Fish and Wildlife Foundation reauthorization, the North 
American Wetlands Conservation Act, and we hope the National 
Fish Habitat Conservation Partnership Act.
    In closing I want to thank the Committee for considering 
the Bipartisan Sportsmen's Act of 2015. I also want to make a 
plea that we continue to put politics aside for the American 
sportsmen outdoor enthusiasts. Conservation has, for more than 
a century, been bipartisan and non-partisan. As we've seen in 
the last two Congresses, the similarly meritorious sportsmen's 
act died in a desire to score political points overrode the 
needs of American sportsmen.
    I think I speak for all 40 plus of our partner 
organizations when I say that we stand ready to work with you 
and your colleagues to make sure this doesn't happen again and 
to pass this critical legislation to help ensure that all 
Americans have quality places to hunt and fish now and for 
generations to come.
    With that, I'm happy to answer any questions.
    [The prepared statement of Mr. Fosburgh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman. Thank you, Mr. Fosburgh.
    I certainly share your request at the end that this good 
legislation, again bipartisan legislation, that has been worked 
on for really many years now, not only make it through the 
Senate process but through the full legislative process and go 
to the President for signature. We have been waiting for far 
too long, and I know America's sportsmen and women would agree 
with us. I think this is why you have an early focus on this 
initiative, early in this congressional session and again, 
great bipartisan support with this.
    I want to start with my questions kind of focused on the 
open unless closed provision that we have within the 
sportsmen's package.
    Mr. Ellis and Ms. Weldon, you both reiterated that it is 
the policy that these Federal lands, our public lands, are open 
unless closed. Yet you have just heard from both Mr. Crane and 
Mr. Fosburgh that the primary reason we seem to be seeing a 
drop off in the hunting and fishing and the recreational 
shooting is because of lack of access. So it begs the question 
what is happening here?
    I would like to know from both of you what procedures you 
actually have in place for notifying individuals or groups that 
use, whether it is our BLM lands or our Forest Service lands 
for the recreation shooting, hunting and fishing, that there 
are restrictions or closures that are put in place. I am trying 
to understand from the perspective of BLM lands, Forest Service 
lands, other public lands, how we engage with the public in 
letting them know it is open or there are restrictions on it? 
How does it work currently? Mr. Ellis, you can go first and 
then Ms. Weldon.
    Mr. Ellis. Thank you, Madam Chairman, I appreciate the 
question. I think Senator Cantwell picked up on a number that I 
had in my notes about 99 percent of the public lands being open 
to hunting and shooting. And so, you know, I've heard a 
question well, what about this one percent? You know, one 
percent being closed or what about this urban growth?
    And so, if I look back on my career, the majority of which 
was spent in the field as a line officer in the field for both 
the BLM and the Forest Service. And, you know, people, 
including myself, I'm a hunter, I'm a fisherman, and I very 
much value these public lands for hunting and fishing.
    If I look at the areas where we put closures on and I look 
at the themes of that, the number one issue, generally, was 
public safety. It was a situation where we have public lands--
--
    Chairman. How do you notify the public of these closures? 
My question is what level of engagement goes on with the public 
to let them know that this area that you and your family have 
traditionally used, you can no longer use? What is the process?
    We have very limited time, and I want to hear from Mr. 
Crane in terms of what he hears from the public about the way 
that you think you notify folks.
    Mr. Ellis. Alright. Okay, well typically what a line 
officer in the field would do if they felt that there was a 
need to look at an area that would be a safety or natural 
resource issue, they engage the local sportsmen's groups. They 
would engage the Federal lands hunting, fishing, shooting 
sports roundtable group. There's about 42 organizations 
represented on that. They would get a hold of the local 
sporting groups in the area. Talk to them. They would involve, 
really, the community. And so this is not something generally 
that's done, you know, very quickly unless it's say, a closure 
for fire. I've closed areas under fire orders for the extreme 
fire danger, for say, exploding targets. That sometimes we have 
to do fairly quickly.
    Chairman. Let me----
    Mr. Ellis. Otherwise we go through a public participation 
process and a Federal Register notice. Federal Register notice 
is also part of that. So we try, Madam Chairman, to be as 
transparent as we can in these issues.
    Chairman. Okay. I want to get to Ms. Weldon and I also want 
to hear quickly from Mr. Crane. So, please if you can answer 
quickly.
    Ms. Weldon. Just quickly. Similarly the need for making a 
change in most instances is driven by a conflict or public 
safety issue, with the amount of development that's occurring 
and changing around national forest boundaries and those sorts 
of things.
    As Steve said, we usually do that by outreach to the 
entities, both the community members and the groups concerned. 
And I think we can do a stronger job as we get those decisions 
in place to make sure that we get the word out on those.
    Chairman. Mr. Crane, does this work?
    Mr. Crane. Not in all of our experiences, and I can focus 
on two quick examples.
    The Sonoran National Monument, south of Phoenix, Arizona. 
Their original BLM proposal was to close the entire monument 
which is north of half a million acres to recreational 
shooting. We found out about it after the proposed decision was 
already put forward. Fortunately the final decision hasn't been 
made, and we're continuing to work with the BLM and the local 
shooting groups down there. But the notification process, it 
was already a de facto recommendation by the BLM.
    The second one, also in Arizona, in the Coronado National 
Forest, recently two canyons were also closed for recreational 
shooting. Again, the notification came after the recommendation 
was made.
    So I'm not sure that I entirely agree that this 
consultation process is working as intended.
    Chairman. My time is expired. I'll turn to Senator 
Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I have a couple of questions hopefully I can get in.
    Mr. Fosburgh, thank you so much for your testimony and 
thank you for the Foundation overall and the conservation 
efforts. It is hard to not mention the Roosevelt Elk and what 
an icon it is to the Pacific Northwest. And to think about how 
Olympic National Park was created in part because of the 
Roosevelt Elk and then what an economic driver it's been for 
the whole Northwest. So, just your foundation alone is a good 
remembrance of how all this stewardship yields good benefits 
for all of us.
    You mentioned that Section 201 in the bill is something 
that you support, but you were making the point that we have to 
get the Land and Water Conservation Fund so that we can 
actually support the funding in that proposal. Do you have any 
suggestions about how we get that done? How we unite everyone 
to make that happen this year since it is expiring?
    Mr. Fosburgh. Yes, I think the vote during the Keystone 
process was promising, and it showed broad bipartisan support 
for LWCF and a permanent reauthorization.
    It's, I think, a little trickier when you get to the House 
side, but I think there was such a broad community united 
behind LWCF from, you know, we have the hunting and fishing 
folks right here, but then the outdoor recreation community, 
this is very important for them as well. It's not just western. 
It's national in how these funds get used. So I think that if 
we just maintain that sort of bipartisan approach.
    Let's also remember that this is money that was dedicated 
50 years ago from offshore oil and gas receipts to this 
dedicated fund. For whatever reason it was not dedicated 
automatically to get out of the door at the same time, so it's 
never been fully funded, except for just a couple of years in 
its whole history. I think we're only beginning to tap the 
potential that that program can do.
    As we see these conflicts, the sprawl encroaches, LWCF 
becomes more and more important. And preserving here, really, 
our outdoor traditions not just hunting and fishing but 
everything we do.
    Senator Cantwell. Thank you.
    Ms. Weldon and Mr. Ellis, could you talk about this issue 
of how you decide whether to allow commercial filming in a 
wilderness area and do you evaluate it under the commercial 
services provision of the Wilderness Act or can you explain how 
the language in this bill would restrict that?
    Ms. Weldon. Yes, thank you for the question, Senator 
Cantwell.
    Under the commercial provision within the Wilderness Act we 
have interpreted that to apply to filming if the filming that 
does occur requires or is promoting or supporting wilderness as 
a feature in what they're doing compared with wilderness as a 
backdrop for something else. So with our interpretation we've 
been able to promote that some commercial filming could occur, 
has to be fully evaluated. If it fits in that context of 
promoting or showing the value and the importance of the 
wilderness concept.
    Senator Cantwell. Mr. Ellis?
    Mr. Ellis. Yes, in my experience I've had in this, 
primarily in Oregon and Idaho, first of all, we love people to 
go out in our wilderness areas and photograph the public lands. 
I mean, they're public lands. They're beautiful public lands. I 
take pictures out there myself when I go out on my horses.
    When we get an application for say, commercial filming in a 
wilderness area such as I've had when I worked in Northeast 
Oregon, we really look in terms of the potential impact that 
may have on the wilderness values and that depends, sometimes, 
on the equipment that they'll have on how they want to get it 
in there.
    I can recall one where we were able to find them a spot to 
film a program that was just outside of wilderness in Hell's 
Canyon. It was just outside the wilderness. They said this 
would work great, and they did.
    And so, I guess, Senator, we work with people. We really do 
work with people to try to preserve the wilderness values and 
yet try to accommodate, as much as we can, what they want to do 
in filming our beautiful national forests, parks and public 
lands.
    Senator Cantwell. Well the Senator from Idaho and I are all 
for promoting Hell's Canyon and having people go there.
    But if you can follow this up in writing, thoughts about 
the specific language in this package and how it relates to the 
Wilderness Act, that would be great.
    Thank you, Madam Chair.
    Chairman. Thank you.
    We will now go to Senator Cassidy.
    Senator Cassidy. Ms. Weldon, I think I followed that you 
were concerned the provision allowing only a $200 fee for 
people to shoot films would somehow also introduce the use of 
motorized vehicles. Was that you or Mr. Ellis who raised that 
concern?
    Now I'm looking here on page eight, line 21 and motorized 
access, nothing in the subparagraph authorizes/requires 
motorized access, and it lists a variety of things. It does not 
include film shooting, but with that, it seems to me, that 
either you could add if it doesn't already preclude half track 
bringing in a crane to do a zoom shot on Baldy. Does that make 
sense?
    Ms. Weldon. It makes sense. I think what we were looking 
for there is just ensuring that the language in the--that 
portion was consistent in ensuring that we included designated 
wilderness areas along with wilderness study areas as places 
that we would still be preventing that motorized access.
    Senator Cassidy. So a minor inclusion----
    Ms. Weldon. Yes.
    Senator Cassidy. I think, would address that for you.
    Ms. Weldon. Yes, it would. Thank you.
    Senator Cassidy. Now again, you then said you were not sure 
that the limit of liability provision would overrule another 
statute in law. But on page ten, line seven, it seems fairly 
straight forward, limitational liability shall not subject the 
U.S. to any civil action, etcetera, etcetera, from personal 
injury or death. Why is that not strong enough to preempt 
another concern?
    Ms. Weldon. I believe we're concerned about how there may 
be a conflict in understanding between what the two are doing. 
So we agree that there is good language in there as far as 
we're going, but we were thinking in terms of the tort 
liability that is in place for any types of activities that 
occur on national forest land.
    Senator Cassidy. So the liability here is specifically for 
shooting injury or death. Are you saying that the other 
provision would preempt this or the other provision would 
include those activities not related to shooting?
    Ms. Weldon. It would include all activities, so I think 
it's a matter of looking at how those need to be nuance among 
each other. But I think it's something that we can work out.
    Senator Cassidy. Okay.
    Now I came from the House side and I'd be interested in the 
two of your opinions in the Benishek Bill that was passed in 
the House. It seemed like some of the language regarding access 
to wilderness for hunters and anglers was a little clearer.
    Mr. Ellis, you began by mentioning that you felt there 
needed to be some clarity. Do you have any thoughts on that?
    Mr. Ellis. Well we have a lot of hunters, hunters and 
fisherman, that use wilderness areas. I'm one of them. My wife 
and I pack our horses into wilderness areas and do both of 
those things. I think that any time we have an opportunity to 
provide access for sportsmen.
    Senator Cassidy. But the specific issue is do you think 
that the language in the Benishek Bill was clearer because you 
mentioned several occasions of a lack of clarity? And so, 
coming from the House and knowing folks over there, I'm a 
little clearer with that. Do you think that bill gives more 
clarity to this point? If so, is that something we should look 
at?
    Mr. Ellis. Well, Senator, I don't have that particular bill 
in front of me.
    Senator Cassidy. Okay.
    Mr. Ellis. I don't have the language of the bill. I would 
be happy to review that language.
    Senator Cassidy. Sounds great.
    Mr. Ellis. And get back to you. I could----
    Senator Cassidy. Now let me ask you one more thing.
    I met yesterday with Senator Murkowski. She showed me a map 
of Alaska and how much is controlled by you two. [Laughter.]
    It's just amazing. It's several states put together. So 
when you say that 98 percent of the land is open for hunting 
and fishing, heck, I figure if you're including that, all of 
the Alaska holdings, then frankly only 85 percent of the lower 
48 would have to be included and you could still make that 
number.
    So I guess my question, sometimes the particular is more 
important than the general. In my State of Louisiana, what 
percent of the Kisatchie National Forest would be open for 
hunting and fishing or if we would take someone else's state, 
West Virginia or New Mexico or Senator Stabenow's state?
    Can you give us the specific number for each state both in 
terms of how much is technically open and how much in reality 
is open because these two gentlemen have indicated that 
sometimes something may be open in theory, but in reality there 
is no access, therefore it is effectively not open? Does that 
make sense? Can you give us those kind of state specifics as 
opposed to lumping us with Alaska, sort of statistics?
    Ms. Weldon. Do you want to go, Steve?
    Senator Cassidy. You can?
    Mr. Ellis. What I have for BLM lands, there's more national 
forest land in your state than in say, West Virginia. I do have 
the numbers, the BLM surface acres that's open to hunting, 
recreational shooting opportunities of 2014, and I can provide 
these numbers for the record if you would like.
    Senator Cassidy. Yes, if you could. I think we would all be 
interested for the particular numbers for our state. You don't 
need to give the detail now, but I think we'd be all interested 
in that.
    Mr. Ellis. Okay.
    Senator Cassidy. Madam Chair, I yield back.
    Chairman. Thank you. I think all of us would appreciate 
seeing those numbers in terms of access.
    Senator Warren?
    Senator Warren. Thank you, Madam Chair.
    Federal law allows individuals, non-profits and small 
businesses who sue the government and win to recover their 
costs in a lawsuit if they can show that the Government's legal 
position wasn't substantially justified. Republicans have 
expressed concern about environmental groups that are awarded 
fees under this law and they've added a provision to the 
Sportsmen's Act that would create a public data base so that 
the public could see how much these groups get. In other words 
Republicans want more transparency when environmental groups 
challenge illegal government actions and win.
    But what about transparency when the Government settles 
claims against corporations that break the law?
    Last Congress former Senator Tom Coburn and I introduced a 
bill called the Truth in Settlements Act which would require 
the Government to take these settlements with big corporations 
and make them public, and this bill was blocked from passage. I 
just want to give you one example of what that means.
    The Department of Justice and the Environmental Protection 
Agency recently settled charges against a subsidiary of Exxon 
Mobil by letting them pay $2.3 million when the company's 
hydraulic fracking operations polluted streams and wetlands. 
Our bill would have required Federal agencies to disclose some 
basic information about the settlement and post a copy of the 
agreement online, but because we haven't passed the Truth in 
Settlements Act yet the public can't even see a copy of the 
settlement.
    Mr. Fosburgh, I know that the Theodore Roosevelt 
Conservation Partnership works to ensure that energy 
development is balanced with the needs of fish and wildlife. Do 
you think it would be useful to have more information about 
this particular settlement with Exxon Mobil subsidiaries when 
its fracking operations polluted these streams and wetlands?
    Mr. Fosburgh. I am by no means an expert at what that 
settlement was or the impacts, but I generally say that I think 
that transparency when dealing with Federal resources, be they 
monetary resources or aquatic resources, whatever it is, 
transparency is a good thing. It should be a good thing whether 
you're a corporation seeing what corporate settlements are. It 
should be a good thing seeing what private NGO settlements or 
fees are. So, I think transparency, in general, is a very 
positive thing.
    Senator Warren. Okay, good.
    Let me just ask one more part to this. Often these 
settlement agreements allow offending companies to write off 
the entire penalty payment as a tax deduction or they allow 
offending companies to claim credits against the settlement for 
doing things they were going to do anyway.
    So let me ask you again, Mr. Fosburgh. As you think about 
whether the Government cut a good deal for the American people 
here, do you think it would be helpful to know if this 
settlement is tax deductible or if it provides Exxon Mobil with 
credits for doing things that was already obligated to do?
    Mr. Fosburgh. I think I will leave that answer to people a 
lot smarter than me in terms of tax and settlements. 
[Laughter.]
    Senator Warren. Alright. Well, I would just like to think 
that maybe it is useful to have that information so that we can 
evaluate what these settlements are like. The Truth in 
Settlements Act moved through Committee without opposition last 
year, and it nearly passed the Senate until it was blocked at 
the last minute. I am going to press forward with this 
bipartisan proposal again in this Congress because far too 
often the critical details of these settlements are hidden from 
the public.
    Federal agencies are charged with holding companies and 
individuals accountable when they break the law. These 
investigations regularly end in settlements rather than in 
public trials. Republicans want to see more details about 
payments of attorney's fees to environmental groups and we now 
see a provision in the Sportsmen's Act to require that. But 
transparency is transparency, and I don't see any justification 
for highlighting what environmental lawyers get paid and at the 
same time hiding the details of settlements with corporations 
that break the law.
    Thank you, Madam Chair.
    Chairman. Thank you, Senator Warren.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Chairman Murkowski.
    First I want to take a moment to acknowledge your efforts 
on behalf of sportsmen all across the country, and I know that 
you and Senator Heinrich have worked hard to address the needs 
and the concerns of anglers, hunters, and outdoorsmen in this 
bill. The broad support from the sportsmen community and 
members of the Senate speaks to the quality of the legislation 
before us today, and I look forward to working with you and 
Senator Heinrich, as the primary sponsors, to advance this bill 
in the Senate.
    Mr. Crane, your testimony touches on the connectivity 
between wildlife habitat management and litigation. In your 
view how does litigation transparency lead to better wildlife 
habitat management?
    Mr. Crane. Senator, I'm going to answer by qualifying my 
answer by saying I'm not an attorney. So this is my layman's 
view of this which is that all too often we're seeing more and 
more of the conservation and habitat management, wildlife 
management, decisions driven by litigation instead of by the 
people who are on the ground doing the work.
    I think it is the belief this provision in this bill is 
there to try to provide transparency so that we can see and 
decide, you can decide, how best to ensure that we're going 
back to where wildlife management decisions are made by 
wildlife management professionals and that the resources are 
being managed in a way that the courts aren't deciding it, but 
the actual people that should be deciding it are doing it. And 
that's my belief is what the intention is.
    Senator Barrasso. Thank you, Mr. Crane.
    Mr. Ellis, you testified that it would be a substantial 
burden, a burden, to report to the public how much of the 
public's own money is spent on lawsuits. Based on your sense of 
burdens I wonder how that burden of accountability compares to 
the burden of people that are actually paying their taxes. It 
is your responsibility to account for public funds less than 
the public's responsibility to pay their own taxes?
    Mr. Ellis. Well, Senator, I'm not an attorney either, I'm a 
forester. But let me----
    Senator Barrasso. Well, it's an Administration position 
though.
    Mr. Ellis. The staff that we would use to pull that 
information together is the same staff who are going to be 
working on many other things that I know are important to all 
of your states on the public lands. And so, you know, the 
people, for example, when we get lawsuits on plans, say in your 
State of Wyoming. We get lawsuits on plans in your State of 
Wyoming. And when we have to pull information together to 
address those lawsuits these are the same employees, the same 
employees that were working on the plan, for the most part, 
that are also doing that. And so the point is not one of not 
being transparent. The point is more of one of the most 
efficient use of the time for our staff in trying to, you know, 
get the job done on the ground.
    Senator Barrasso. Thank you.
    Ms. Weldon, the Government Accountability Office published 
a report titled, Limited Data Available of USDA and Interior 
Attorney Fee Claims and Payment. The report states that most 
USDA and Interior agencies did not have readily available 
information on Attorney Fee Claims and Payments made under the 
Equal Access to Justice Act. The GAO report contradicts what 
the Forest Service is testifying that this information is 
largely already available. So is the Government Accountability 
Office wrong and you do have the information already available?
    Ms. Weldon. Thank you, Senator. I want to emphasize as well 
that it is valuable and important that that information on fees 
be transparent and available to the public.
    When we looked at the response with GAO we have this 
information in different places. We have one place where we 
track, within our financial system, what fees were paid. 
There's another part of our system that tracks the lawsuits and 
the outcomes for those.
    So similar to what Mr. Ellis was saying, it's a matter of 
constructing the data base and taking the time to do it to 
allow us to deliver the answers that are being requested in the 
legislation.
    So again, supporting the idea of transparency, but the work 
to pull that into a system that can work well is what we're 
wanting to be able to do well.
    Senator Barrasso. So then will you provide this Committee 
with all the attorney fee claims and payments made under the 
Equal Access to Justice Act and other, kind of, fee shifting 
statutes including the total amount paid, who received the 
payments and the statutes under which the cases were brought?
    Ms. Weldon. We can do that, but it will take a substantial 
effort to pull it together.
    Senator Barrasso. So when can I expect to get those 
results?
    Ms. Weldon. I'd like to get back with you on when we can 
provide that to you if you don't----
    Senator Barrasso. Because we would like to have it. I think 
all of us would like to see that information. We think that the 
public has a right to see that.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. Thank you, Madam Chairman. I'm just about 
out of time.
    Chairman. Thank you, Senator Barrasso.
    Let's go to our prime co-sponsor here, Senator Heinrich. 
Thank you for your leadership on this.
    Senator Heinrich. Well, I want to thank you. I, like you, 
am optimistic. I am excited about this, and I think taking a 
regular order pathway and getting on this early and just the 
bipartisan support we have should bode well for success. So 
thanks for your work.
    I want to thank Senator Barrasso as well, who I worked very 
closely with on the particulars of the Hunt Act language. I 
really appreciate that.
    And with that I want to go to a couple of questions. I 
think I will start with Mr. Crane.
    I wanted to say it is a fantastic bill, but obviously we 
can always improve things. Looking at the provisions we are 
considering today I want to get your take on how we might 
possibly beef up the sport fishing and aquatic resources 
perspective of the bill.
    I know that Senators Cardin and Crapo had a bill last year 
to support and codify the National Fish Habitat Partnership 
Program and that Chairman Murkowski and her staff are working 
with those two Senators to move a fresh version of this 
legislation into consideration for this package.
    Can you speak about why this is important to the, roughly, 
40 million sport fishers in the United States and the impact 
that those activities have on our economy?
    Mr. Crane. Thank you, Senator.
    I'm very familiar with the legislation that you're talking 
about. We are part of the working group that is working with 
the lead Senators, with Senator Murkowski's staff. We'd be very 
supportive of putting the National Fish Habitat Conservation 
Act into this legislation if it is appropriate and it will 
actually help support passage and the necessary 60 votes.
    Anglers spend in the neighborhood of $40 billion a year in 
pursuit of their sport. To have, as I said in the beginning, 
access and opportunity and opportunity means good habitat. It 
means marine habitat. It means run off. It means repairing in 
areas the things that are important in connecting these 
together as this plan would do.
    Looking at this more holistically, like the North American 
Wetlands Conservation Act does for water fowl and the 
management of those resources, I think, is just something that 
would be good management. And we would love to work with you 
and continue to work with you and support this provision.
    Senator Heinrich. I appreciate your help on that and I 
think coming from New Mexico where we have very little water, 
we appreciate our ripe parinaris, our wetlands and our fish 
habitat even more.
    Mr. Fosburgh, I want to ask you a question. You mentioned 
this in your opening testimony, and I was hoping you could talk 
a little bit about the North American model for wildlife 
conservation. How is it different from management in other 
parts of the world and what that means for the average hunter 
who may not be of means and how that is different from many 
places we see around the globe?
    Mr. Fosburgh. Yes, we sort of take this for granted over 
here. But you have to really look at, sort of, you have fish 
and wildlife as managed in other places. I mean, it's still you 
go to European countries, England, and the fish and the game 
belong to the land of gentry--it was never, you know, it has 
not been for centuries a common man's sport.
    Over here that's very different, and I think you really saw 
that back to the sort of frontier mentality. We settled 
America, but also folks like Theodore Roosevelt who really 
believed that the public lands, the hunting and fishing, were 
fundamental of what it meant to be an American.
    When you can go of any walk of life, any means, you can go 
out there and get a license. You can get a tag. You can go out 
and pursue fish and game. You don't have to be able to afford a 
fancy hunt or a high fence ranch or anything like that. Anybody 
can do this, and I think that's why we have such great 
resources in this country because it incentivizes everybody, 
including the 40 million Americans that hunt and fish, to get 
out there and take care of that resource. You look at the work 
that Ducks Unlimited, Rocky Mountain Elk Foundation, and Turkey 
Federation, all those groups do. That is done because those 
guys can get out there. Those guys and women can get out there 
and participate in this sport.
    But it's something that doesn't take care of itself. We 
have to nurture that. We have to encourage it, and it gets 
tougher and tougher as we get more competing demands on our 
people, but also on our lands.
    Senator Heinrich. Well, I want to thank you for pointing 
that out because it really is unique in the world. It is the 
envy of the world because it has been so successful. People 
forget there was a time when white tails were incredibly 
uncommon across the East, when elk were extinct in New Mexico 
and that is far from the case today. In fact, if anyone wants 
to visit New Mexico, I would remind them that permits on the 
game and fish website are due on the 18th of this month. So you 
better get your applications in.
    With that, I'll stick around for the next round, Madam 
Chair.
    Chairman. We appreciate that, and thank you for your 
leadership.
    I also want to thank Senator Risch for his leadership as 
the co-chair of the Sportsmen's Caucus. Your questions, sir.
    Senator Risch. Thank you, Madam Chairman.
    First of all I want to thank everyone who has worked on 
this. I think we have hit the sweet spot this time, Jeff. We 
have Senator Murkowski and I actually being the lead on this 
bill, Senator Manchin and I as the co-chairman of the 
Sportsmen's Caucus, and then also Senator Fischer and Senator 
Heitkamp as vice chairmen have all been very heavily involved 
in this year.
    We think we have got a different landscape than what we 
have had, and I certainly want to thank everyone who worked on 
this, including Jeff, who has been undaunted and incredibly 
persistent and undeterred by the slowness with which Congress 
works on some of these things. Thank you for that. We 
appreciate your impatience with the political process but 
that's, kind of, it is what it is sort of thing here.
    In any event we think we have got this right now. It has 
been kicking around for a long time, and we think we are going 
to get that vote on the floor that we all so desperately want.
    My issue has been with the fact that we are not getting the 
participation we should be getting from youth here in America. 
Every time I give a speech on this I urge people to mentor the 
kids and get them out, get them away from their devices and get 
them out in the field to hunt and fish because this is really 
part of our culture in America. It would be a shame to see the 
thing fade because--we all know that there's an anti-hunting, 
really anti-fishing mentality out there in some people, and if 
they flex their muscle it could be a tough fight. We need to 
engage as many people in this as we can. For people who have 
never experienced this it is their great loss not being able to 
go out in the field and do these kinds of things. So I urge 
everyone to get out there and mentor young people.
    When I was Governor I went and had them look back at the 
licenses that we issued to the youth. It is not particularly 
encouraging to see the statistics on how that has been changing 
over the years, so we all need to work at that.
    This bill is a bill that will help preserve that incredible 
tradition and culture that we have in America. I am glad to be 
part of it, and I am glad to be working with the people who are 
pressing it.
    So thank you, Madam Chairman, thank all of you who have 
worked on this.
    Chairman. Thank you, Senator Risch. This will be our time. 
This will be our year. Let's be optimistic about that.
    Let's go to Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Well, Hawaii has a lot of hunters and fishermen and women, 
so I certainly support these activities.
    I would like to get a better understanding of this bill and 
putting it into context. I heard in testimony this morning that 
30 million acres of public lands are not accessible or closed 
to hunting and fishing. Now I see not accessible as very 
different from closed. So I want to get that clarified. And 
that 99 percent of public lands are open.
    So is this bill really focusing on that 30 million acres of 
public lands that are either not accessible or closed or are we 
just talking about just those areas that are not accessible to 
hunting and fishing? Could somebody clarify that for me?
    Mr. Crane. I'd be happy to try to do that. I think the 
distinction of the not accessible is literally inaccessible 
physically for somebody to get there. As you're well aware, the 
West in particular is a patchwork of public and private lands. 
And there's all too often cases where public lands are 
inaccessible because of this network of private in holdings. 
There are also times when roads are closed and things like 
that, but we're really talking about inaccessible because of 
some of these networks.
    So a couple of the provisions in the bill, your colleague, 
Senator Heinrich's Hunt Act, looks at inventorying where these 
are most likely to occur, where the high value recreational 
access points are maybe being blocked physically. Making public 
lands public with the set aside from LWCF would be dedicated 
funding to look at willing participants, sellers, people 
willing to have an easement over private property, create more 
access and more opportunities.
    So----
    Senator Hirono. So for Mr. Ellis and Ms. Weldon then, we're 
all on the same page, that is, this 30 million acres of public 
lands that are inaccessible, not closed. Because you obviously 
have procedures if you are going to close off certain areas for 
these kinds of hunting and fishing activities.
    Ms. Weldon. Yes, I would agree with that. Thank you for 
that question. The opportunity we have is to find ways to 
create that additional access to those places that are closed 
off, and we can do that through the LWCF program which we work 
in great partnership with many groups to help deliver new 
connections to land, new access across private land onto public 
land.
    Senator Hirono. So this bill would require that the 
agencies determine which inaccessible lands would establish 
priorities as to how to open these areas and also you need to 
have the means and resources because if there are private 
lands, right of ways, that you have to negotiate and purchase 
you would need to have that funding. Correct?
    Mr. Ellis. Senator, I might mention that this number 
figures on accessible lands. My experience in my career, it can 
really change every year. Because what I've seen in my travels 
is that there may be an area that we access for one time, a new 
landowner comes in, buys a piece of private ground below the 
public land, slaps a lock and a gate on it. And then our phone 
starts to ring at the local BLM office, the local ranger 
district, and we look and find maybe we never had any 
easements.
    So that's always changing. What we do then is we try to 
prioritize these areas, and our public helps us do this. I know 
in one I had when I worked in Idaho, in Shoshone, Idaho. The 
sportsmen got very engaged on one of these and we worked with 
Blaine County in working with the landowners to get access to 
that area.
    What I think the key thing is to work with our local 
communities, work with all our publics, the sportsmen and all 
our publics, the hunters and the non-hunters, fishermen, non-
fishermen, to try to set these priorities and that's really----
    Senator Hirono. Well, I think it's important because 
clearly the majority of the people who enjoy our public lands 
are not hunters and fishermen, and so I do have a question as 
to with this bill and its emphasis on hunting and fishing, 
would that create some safety, further safety issues for the 
non-hunting, non-fishing public? For example, hunting also 
includes trapping within our public lands. Would that increase 
concerns about safety for the non-hunting, non-fishing public?
    Ms. Weldon. I don't believe it would. Again, the activities 
and where they occur, it's always a question of conflict and 
how do we accommodate everything everywhere. So if there were 
places where trapping would occur that are also places where 
other recreation activities would be occurring then we would 
need to make sure and ensure it could be done safely.
    Senator Hirono. For our Federal agencies then basically the 
concerns that you have raised about this bill are concerns that 
could be addressed to allow this bill to go forward for both of 
you. Thank you.
    Thank you, Madam Chair.
    Chairman. Good to know.
    Senator Portman is not back. It looks like Senator Gardner, 
you are up next.
    Senator Gardner. Thank you, Madam Chair, and thank you to 
Ranking Member Cantwell for this hearing today. Just a reminder 
to everybody, I think you could buy turkey licenses for the 
spring hunt as of yesterday in Colorado. So March 11th I think 
you can start buying the licenses for it.
    This is a difficult hearing. Next time I suggest maybe Gore 
Creek for this hearing or something like that in Colorado, if 
we could.
    I know there are a couple people in the audience here today 
from Colorado, so I want to welcome them. I hope I am not 
breaking Committee rules by doing that, Madam Chairman.
    I just wanted to talk about the importance of outdoor 
activity recreation to Colorado, a significant economic boom 
to, not just Colorado, but all of our states.
    According to Colorado Parks and Wildlife total statewide 
economic output outdoor recreation is $34.5 billion per year, 
contributing $4.9 billion in local, State, and Federal tax 
revenue. Colorado sportsmen and sportswomen support $3.6 
million spending per day and $135 million in State and local 
taxes. So it's a great opportunity to be here to promote our 
great outdoors.
    I wanted to talk a little bit about the Judgment Fund 
Transparency Act and that aspect of the Sportsmen's Act, 
contained in the bill's legislation, that I authored in the 
House of Representatives and introduced again this year with 
Senator Fischer from Nebraska. The Judgment Fund Transparency 
Act would require a public accounting of the taxpayer funds 
distributed to litigants who bring claims against the Federal 
Government.
    This fund was originally created to help small businesses 
and veterans bring claims against our Government, but it has 
been used by others now. The group continuously I am concerned 
about those who continue to sue the Federal Government and may 
be trying to influence public policy outside of the legislative 
process. Court precedents set by such litigation could 
undermine public policy and policymaking, so I think it is 
important that we have transparency when it comes to these 
public funds so that we could have these details.
    I will direct my question to you, Mr. Crane. It is good to 
see you. Do you believe this provision is important to include 
in the Sportsmen's Act?
    Mr. Crane. Yes, sir, Senator, I do. As I stated earlier, I 
think I agree with you that all too often litigation is 
defining management, habitat, wildlife management decisions. 
The agencies, clearly, are looking at tighter fiscal times and 
to the extent that they have to pursue all these legal 
challenges, I think that's taking resources away from 
conservation and the things that we care about. So I think it's 
very important to include it in there.
    Senator Gardner. Just as you stated at the end, helping 
conservation efforts, that would help our sportsmen and 
sportswomen to include this?
    Mr. Crane. 100 percent it would.
    Senator Gardner. And again, this is something to Mr. Ellis 
and Ms. Weldon. I do not know if you would be able to provide 
this today, but if you could followup, if you would, an example 
where a lawsuit against the Federal Government resulted in 
restricting hunting, angler or fishing activities on Federal 
lands. That would be fantastic if you could followup with some 
examples of that.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Gardner. In the latest hunting access report 
Colorado had a high but declining level of hunting 
participation. I know that has been brought up this morning.
    The study that referenced showed Colorado public lands were 
generally accessible and that no more than 12 percent of 
Federal lands in Colorado were land locked by private land. 
There seems to be a misconception that public lands are land 
locked when in fact a lot of accessibility is truly there, but 
we should address this lack of awareness for alternative routes 
or remote access points. I think it is very important.
    Section 101 of the bill would direct Federal land managers 
to facilitate use of an access to Federal public lands for 
recreational fishing, hunting and recreational shooting. Would 
you agree that this could lead to improved planning and require 
the BLM and Forest Service to include evaluations of hunting, 
fishing and shooting access in resource management plans, land 
resource management plans, travel management plans and energy 
development plans, further promoting the multiple use 
philosophy of our public lands?
    Mr. Ellis, I'll start with you.
    Mr. Ellis. Okay, Senator, thank you.
    Regarding Section 101 one of the concerns that I had when I 
looked at that section and again, 99 percent of the lands are 
open. And except I thought, we thought, that the language might 
imply that BLM must make decisions that maximize hunting, 
fishing and target shooting. And that, you know, those 
activities, as I have indicated, are very important to us, but 
we want to feel that that language could result in litigation 
if we make decisions that do not maximize hunting, fishing and 
shooting.
    Let me give you an example. One of the things that we did, 
I refer to Idaho a lot because I spent a lot of my career in 
that state, was we put in these green strips. And it's green 
strips of vegetation to help stop wildfire, particularly in 
some of this grouse country, in Sage Grouse country. And we do 
that along the interstate, you know, between Mountain Home and 
Boise. We've done it in other areas. And we do a NEPA. Right? 
We do NEPA and do part of that. And those are in areas, in 
those chief grouse areas, those are areas if we go through NEPA 
and we do a decision we would not necessarily look in terms of 
whether that action was something to maximize hunting, fishing 
and shooting.
    Another concern that I had when I looked at that is that 
when we do NEPA documents, particularly planning documents, we 
develop a suite of alternatives based on public scoping. And so 
we go out to our public, we have public hearings and we 
identify issues. And many times, many times, hunting, fishing 
or one of those issues, I think that's a good thing. And then 
out of those issues then we develop alternatives. As part of 
that we analyze those alternatives. So with this event, 
essentially, would do, it would say, okay, we're going to do 
that regardless of it came up in scoping, regardless of issues. 
This would be one of them.
    So with so many of these lands that are open and that we 
want to continue to have open, I think that that is something 
that, based on my experience, would be ripe, very ripe for 
litigation. And so----
    Mr. Gardner. I do not want to cut you off, Mr. Ellis, but 
Mr. Crane would you like to respond?
    Chairman. We are going to have to move through this very, 
very quickly.
    Mr. Crane. I'll make mine very short. I would just call 
attention to the National Wildlife Refuge Improvement Act. It 
has priority uses that defines hunting and fishing, statutorily 
and how well that is working for the Fish and Wildlife Service 
at the Refuge System. I don't believe that this is going to be 
the issue that's suggested here.
    Senator Gardner. Thank you, Madam Chair.
    Chairman. Senator Stabenow?
    Senator Stabenow. Well thank you, Madam Chair, and I look 
forward to working with you and Senator Cantwell as we move 
forward on this.
    I want to thank, first, the panelists who worked with us on 
another bipartisan effort, on the Farm Bill. We hope for the 
same effort going forward on this. Particularly Jeff, I want to 
thank you for helping us put together a very aggressive 
conservation title. And of course, Ms. Weldon, our Forestry 
title as well. We very much appreciate that.
    I have a question, but I wanted to mention a couple of 
things just to echo the Land and Water Conservation Fund, what 
has been mentioned already and what Senator Cantwell has said. 
Hopefully, Madam Chair, we can move forward with that, to 
reauthorize that very, very important legislation.
    I also wanted to just put a plug in for the Conservation 
Easement Program. That is in another committee, the Tax Credit 
that Senator Heller and I have in Finance Committee, but it is 
very, very important in protecting and preserving lands that we 
extend that, and we would like very much to make that 
permanent. So, we want to work with you on that as well.
    Madam Chair, with Senator Portman here I want to mention 
and ask that we work together and something that very much 
relates to this is not yet a part of the bill, but it deals 
with fishing. And that is the question of Asian Carp. Senator 
Portman and I put in legislation that has been co-sponsored by 
at least two other members of the Committee so far, that deals 
with what happens if in fact these large fish keep coming up 
the Mississippi and Illinois River into the Great Lakes. They 
can outcompete any native fish in terms of food and habitat and 
would basically destroy the $7 billion fishing industry in the 
eight Great Lakes region.
    It is critically important. I grew up North in Michigan 
where everything was about hunting and fishing, and I can tell 
you about the Great Lakes and what could happen if in fact we 
cannot stop these fish from coming to the Great Lakes. It would 
be absolutely disastrous to our fishing industry and boating 
industry as I know our panelists know.
    Senator Risch is gone now, but I did want to put in a plug 
for the next generation. My son, who is an avid, competitive 
bass fisherman and also does ice fishing, on the coldest day of 
the year so far, had my grandkids out in their ice shanty 
fishing. So there is a next generation. I think they're crazy. 
It was very cold. [Laughter.] But they were out there.
    But the Asian Carp, it is critically important, and there 
are technologies now that can be used. We have identified a 
spot, 40 miles south of Chicago, where if we increased certain 
technologies and barriers it would make a huge difference, and 
so I would like very much to work with you as we move forward 
on this.
    I have a question for panelists that is not specific in the 
bill but relates to it and that relates to the Forest Service 
and what is happening in terms of our ability to manage our 
forest lands which are so important.
    Ms. Weldon, I wanted to ask you because I am a co-sponsor 
of Senator Wyden and Senator Crapo's Wildfire Disaster Funding. 
I am very concerned about the wildfires that are happening, we 
have to address those. We know and we have gone from 1995 
spending 16 percent of our budget on fire fighting today to 40 
percent. But what is happening is important management issues 
now cannot be funded.
    So when I look at what is happening in the Great Lakes, for 
instance, and I understand why dollars are being diverted to 
the Western states, but we are seeing more and more regular 
management practices that need to happen not being able to 
happen that would relate to restoration, management activities, 
that deal with game species, open spaces, other important parts 
of this whole discussion. I wonder if you might speak to, if 
we, in fact, pass the Wildfire bill would that allow funds to 
be freed up for restoration and management activities to 
protect our forests and species on our forest land?
    Ms. Weldon. Yes, thank you for the question, Senator 
Stabenow. And again, our appreciation, greatly, for the years 
of work that's gone in by Congress and by many other partners 
to put us on a path to really address this issue we have on how 
we fund wildfire.
    So quickly, we know we will stay in a situation where 
wildfires have two situations. One where we are very successful 
in addressing them, and the second part where we have wildfires 
that are larger, more impactive and more costly than we've ever 
seen.
    And so having a solution which is proposed with this 2016 
bill will put us in a place where we can direct more of our 
resource management funds to address those high priority places 
for reducing risks to communities from wildfire, restoring 
areas that create better habitat, better water quality and then 
freeing up funds that help us to be of service to citizens in 
the whole array of our mission, be it developing recreation, be 
it hosting and supporting other small businesses that come to 
do work on the national forest.
    Senator Stabenow. Thank you.
    Thank you, Madam Chair.
    Chairman. Senator Portman?
    Senator Portman. Thank you, Madam Chair, and to you and to 
Senator Heinrich, congratulations on this legislation. I know 
it is something that you have worked long and hard on, and I 
know how frustrating it is not to get legislation that you have 
spent so much time and effort on through this crazy process 
here in Washington. I will be with you on this again, and I 
hope we can get it through the gauntlet here in the Senate and 
the House, and get it to the President for signature because it 
makes so much sense.
    Senator Risch and Senator Manchin, I notice you were 
original co-sponsors as well, so a lot of members of this 
Committee are involved with this legislation.
    It is really important for Ohio. We have got, as you know, 
lots of sportsmen and women in Ohio, hunters and fishermen and 
a lot of them do not have access to private land. They just do 
not own a farm or other land themselves. So they find this to 
be, really, their top issue is how to ensure access to public 
lands.
    I want to talk about Section 105 in a second, but while 
Senator Stabenow is still here, let me say, the other issue 
that is huge in Ohio right now is the idea of these Asian Carp 
coming up into the Great Lakes. It is a $7 billion fishing 
industry in the Great Lakes now.
    By the way, the most fertile of those lakes is the one that 
is the smallest and most shallow, and that is Lake Erie. For 
both Senator Stabenow and me, of course, this is an issue that 
is near and dear to our hearts. I have gone fishing on Lake 
Erie this past summer and the summer before for Walleye and 
because we were involved in this effort, this legislation, I 
asked other fishermen that I found at the docks, you know, 
where are you from? It is not just an Ohio issue or a Michigan 
issue or even an issue related to the United States around the 
Great Lakes because there are people that are fishing from 
states all over, at least the Eastern part of the United 
States. They come for some of the best Walleye fishing in the 
world. I would argue the best Walleye fishing in the world is 
in Lake Erie, around Port Clinton.
    They are very nervous about this because what is happening 
is in other instances is when carp come in, they outcompete the 
native species and we could ruin what is a huge economic 
benefit to our region and a really important recreational and 
commercial fishing industry in the Great Lakes. I do hope that 
you will work with us and with the authors of the legislation 
to see what we can include in this legislation even on this 
issue because it directly relates to sportsmen and to the 
ability for us to continue to have this great resource.
    By the way, these fishermen, the same is true with all the 
hunters, you know, they pay fees. They pay taxes. They are 
supporting all of the conservation efforts, including on lands 
where, I know, they will never have access. They do not expect 
to have access, like our national parks and including on 
private land because the wildlife officers, of course, are also 
patrolling private land that they may not have access to but at 
least they deserve access to more of the public lands that, in 
a sense, they are paying for with the millions of dollars of 
taxes and fees.
    Again, Senator Stabenow, thank you for your leadership on 
this. We have introduced legislation recently. Do you all have 
thoughts on Asian Carp? I do not know quite who to direct this 
to because none of you have a specific responsibility for this, 
but all of you, I am sure, have an interest in it.
    Ms. Weldon. I can start. Just with this era that we find 
ourselves in our global economy and such, we are seeing a huge 
impact from invasive species. Asian Carp is a great example 
where we're seeing significant change in how ecosystems operate 
and the affect of those on these economies that you described 
and experiences that people can expect.
    So I would say that us working, especially with Fish and 
Wildlife Service, with other state agencies and with lots of 
partnership groups as well. When we get together and focus on 
these areas we can find ways for success. It's a huge issue 
with the Great Lakes and what could be loss from that that does 
require really focused attention and some innovation on how to 
solve it.
    Senator Portman. Mr. Fosburgh, do you have some thoughts 
because it seems like--and thank you very much, Ms. Weldon, but 
thanks to all of you for your work on this but on this specific 
issue would the members of TRCP and their 40 national, regional 
partner organizations I see in your testimony, would they 
support inclusion of some language in S. 556 that would address 
this concern in some way?
    Mr. Fosburgh. Yes, I think it's an incredibly important 
issue, and I think you've described it very articulately. I 
think that our community would be very supportive of seeing 
something like this added provided that it helped the bill. I 
think it would achieve final passage.
    So, I think, yes, we would be very eager to work with you 
and Senator Stabenow and others to make sure that we get the 
support for this.
    Senator Portman. Any other comments? Mr. Crane or Mr. 
Ellis?
    Mr. Ellis. I'd be happy, Senator, to get back to you, have 
someone at the service, Fish and Wildlife Service, get back to 
you on this issue.
    Senator Portman. Mr. Crane?
    Mr. Crane. We are equally concerned of the impacts of the 
Asian Carp.
    Senator Portman. Well, again, thank you very much for your 
testimony today, and importantly to the Chair and Senator 
Heinrich for their work on this. I am going to be with you. I 
am on the Sportsmen's Caucus. I am the sportsman who believes 
strongly in providing more access to public lands. We can do it 
in a responsible way as this legislation does in my view, 
including Section 105.
    So, I look forward to supporting you and getting this done.
    Chairman. Senator Wyden?
    Senator Wyden. Thank you, Madam Chair.
    First of all, Senator Stabenow made the key point with 
respect to wildfire. You cannot do a lot of hunting and fishing 
in the woods if they are burning up, and the reality is the 
wildfire system and how we fund fighting fires is broken. We 
short the Prevention Fund year after year then you get an 
inferno on your hands, and all of a sudden you borrow from the 
Prevention Fund to put the fire out. It just gets worse and 
worse and worse.
    So Ms. Weldon, you all have been supportive of our bill 
with Senator Crapo. We appreciate that. We just need you to be 
very, very vocal on this.
    I flew all night last Wednesday to be home in Medford for a 
fire briefing. It was unheard of, unheard of, that you would 
have fire briefings in March. I mean, nobody had that in the 
past. They told me in Medford they were looking at the driest 
season in 25 years. Then I moved on to Eugene, and they said 
they have had 10 percent of the snow pack. So we are looking at 
a very dangerous fire season.
    So you all have been supportive, and we appreciate it, but 
you are going to need to be very, very visible and vocal on 
this because we need to get this bill passed and make better 
use of scarce resources.
    Let me ask a question of you, if I might, Mr. Crane.
    As you know this bill, which I support, allows Americans to 
transport bows across National Park Service lands as long as 
they are not ready for immediate use. I think this idea of 
protecting the transport of legal hunting and camping tools is 
going to strike a lot of people as just plain old common sense. 
So Senator Enzi and I, in a bipartisan way, have tried to build 
on that and say that we ought to protect knife owners traveling 
between places where their knife is legal, and this is the 
important part, as long as the knife is inaccessible during the 
journey.
    Now discussions about the transportation of bows or knives 
and the like are separate and different from discussions about 
their use and those decisions have historically been left to 
each state to make, but I think this idea that people who are 
just passing through can stow their knife in the trunk or in 
the glove box or a closed container, again, just strikes me as 
garden variety, common sense.
    In principle, you do not have to say you endorse the bill 
or not, but in principle do you think that makes sense?
    Mr. Crane. Yes, sir, and I'm familiar with the bill and 
thank you for your leadership on that. As you are well aware, 
knives are extremely important to sportsmen and women, and we 
endeavor to work with you and Senator Enzi to help you pass 
that.
    Senator Wyden. I think I am going to quit while I am ahead.
    Thank you, Madam Chair.
    Chairman. Sorry, we were just discussing in a side bar 
here. You cannot take a knife through our public lands? I am 
assuming it is a size issue?
    Mr. Crane. I think the issue is more the various states and 
municipal statutes and not running the risk of crossing a state 
line or into a municipal line and carrying a knife that might 
be illegal in that statute, not dissimilar to firearms when 
you're crossing state lines. The firearms protect----
    Chairman. I don't mean to demonstrate my ignorance, but I 
guess coming from a state that is one fifth the size of the 
country, we do not worry about crossing over into another 
state's jurisdiction there. [Laughter.]
    We go into another country, but I do want to look into that 
with Senator Wyden.
    Let's go to Senator Daines from the great State of Montana.
    Senator Daines. Madam Chair, speaking from Montana, I can 
tell you it is pretty tough to field dress an elk without a 
knife. I am just saying.
    Chairman. Well, I am thinking that.
    Senator Daines. Yes.
    Chairman. What are we going to do? Use our nail clippers?
    Senator Daines. Yes, I am not sure.
    Thank you, Chairwoman Murkowski, for holding this hearing 
on the bipartisan Sportsmen's Act. It is an important bill to 
Montana, and I am a proud co-sponsor.
    Like so many Montanans hunting, fishing and access to 
public lands is a way of life for us. It passed down from my 
grandfather, to my dad, to me, as a kid growing up. I will tell 
you, as a public service announcement from Montanans, remember 
March 16th is the deadline right now for special draw for deer 
and elk permits for those who are out there and may be caught 
up in DC politics.
    I also appreciated Senator Risch's comments about children 
and passing this on to the next generation. One of the best 
parts when I have taken my kids hunting, we have four children, 
we love to hunt and fish, is usually they do not have cell 
phone coverage when we are out hunting. [Laughter.]
    They have to put down their phones so they can pick up 
their rifles and their bows and so forth. That is one of the 
great parts of getting out anymore, I think, with your kids. I 
love that statement, that famous line that says if you take 
your kids hunting, some day you won't have to hunt for your 
kids. I think it is very, very true.
    Mr. Crane, as you stated in your testimony the idea of 
Conservation America began with members of the sportsmen 
community, and I know Montana sportsmen are frustrated with 
their current level of access to Federal lands in Montana. They 
are frustrated with fringe groups who are obstructing 
worthwhile projects that are important to effectively managing 
our forests.
    In fact, Montana faces a severe challenge of mismanagement 
of our forest lands, Federally, due to habitual litigation. In 
fact just two weeks ago we had Forest Service Chief Tidwell 
confirm that litigation, restraining orders, have a significant 
impact on Federal forest management. They occupy significant 
staff resources that could otherwise be spent on getting 
projects done. Yet these habitual litigants continue to get 
reimbursed by the Federal taxpayers through the Equal Access to 
Justice Act and the Judgment Fund, in particular. I am happy to 
see the provision related to ensuring taxpayers are given more 
transparency on the recipients of these funds.
    Mr. Crane, can you expand on how the Bipartisan Sportsmen's 
Act would help address the problem of these obstructionist 
tactics?
    Mr. Crane. Yes, Senator, and I'll try to keep it brief. 
There are several provisions that I think would benefit this 
issue and help solve this problem.
    The first one is the Equal Access to Justice Provision in 
there and the transparency for the lawsuits and the Judgment 
Fund. I think that will help to enable all of us to look at it 
and see where, really, the issues are and who may be, if there 
is a theme of folks that are going after access and forestry 
management.
    The Making Public Lands Public deals with set aside from 
Land and Water Conservation funding for willing sellers to 
provide physical access across private properties to make more 
access to Federal public lands.
    Then Senator Heinrich's Hunt Act requires the Federal 
agencies to look at and prioritize areas where there is an 
access, adequate access, for sportsmen and women and other 
outdoor recreationists and to try to look at how we can, with 
that inventory, then we can look at how we might be able to 
solve that.
    Senator Daines. Thanks, Mr. Crane and you brought up the 
issue of making public lands public.
    Mr. Fosburgh, in the House I introduced the Making Public 
Lands Public provision as a standalone bill. I am very happy to 
see it included in this bill before us today. I think an 
important part of LWCF, as Mr. Crane pointed out, is allocating 
dollars to ensure public access to public lands.
    In Montana we have two million acres of public lands that 
are inaccessible to the public. I am happy to see your support 
of this provision. I know that the provision is a priority for 
several sportsmen groups back home in Montana.
    Mr. Fosburgh, why is sportsmen access a worthy investment 
of LWCF?
    Mr. Fosburgh. Well, I think that first you have to look at 
the big numbers which is the $90 billion that hunters and 
fishermen provide the economy every year. Those are a 
significant part of the whole $646 billion outdoor recreation 
economy. 6.1 billion--million jobs in the broader recreation 
economy. And those are jobs that are never going to get 
exported to China. These are American jobs that we take care of 
our lands, take care of our fish and wildlife and give people 
access to those we'll have that forever.
    The concern is that it just is as access gets more and more 
difficult you're going to see a drop off in those numbers, and 
that's bad for budget reasons. One is the amount of money. When 
Jeff and I and other folks go out and buy our licenses that we 
pay into that system. We pay excise taxes on guns, ammo, 
fishing equipment, boating equipment. We buy our permits. We 
buy our tags.
    Senator Daines. Sure.
    Mr. Fosburgh. We are members of various organizations, 
contribute our money there. So you lose that also as you lose 
the access to the public lands.
    Senator Daines. One followup question, Mr. Crane, on that 
is how does that open until closed provision, Section 101 of 
the bill, help ensure public lands are, in fact, managed for 
multiple use?
    Mr. Crane. I think that we don't have the statutory 
protections in the Forest Service and the BLM that we have with 
the Fish and Wildlife Service. I think that by providing that 
we, again, support this rural economy. We support the 
traditions of hunting and fishing, and we would like to see 
those protected and ensured that they're going to remain 
protected in future generations.
    Senator Daines. Great. Thank you.
    Chairman. Thank you, Senator Daines.
    The co-chair of our Sportsmen's Caucus, Senator Manchin.
    Senator Manchin. First of all, Madam Chairman.
    Chairman. Thank you for your leadership.
    Senator Manchin. Thank you so much. I just want to thank 
you for your perseverance. How long have you have been working 
on this? A long time.
    There is no reason it should not have passed three years 
ago. There really isn't. So we are at that point now, and I 
think with Senator Heinrich and Madam Chairman working closely 
together, this is going to get done. I am proud to be a co-
chair of the Congressional Sportsmen's Caucus with Senator 
Risch, a dear friend of mine.
    The bottom line is that this is bipartisan. It's been 
bipartisan, and it will also be bipartisan because of the 
economics. It makes sense.
    I can just give you from my little State of West Virginia 
how important it is to our culture, who we are as people and 
how many people depend on this for a livelihood.
    Our greatest priority is to make sure the mountain state 
people and everybody across the nation continue to enjoy 
hunting and fishing and recreational shooting and have the 
ability to appreciate all the outdoors has to offer.
    In West Virginia alone we have more than 1.6 million acres 
of public land open to hunting with 28 shooting ranges on these 
lands, and when I was Governor we expanded that. It was such a 
draw, and it was really a family type of an outing, a little 
bit of something for everybody.
    We have a year-round fishing season which produces an awful 
lot of revenue from fishing licenses, and we have more than 
20,000 miles of streams and a hundred public fishing lakes.
    Let me just give you a little bit about our economics as of 
2011. We saw more than 400,000 hunters in our little state who 
supported 12,000 jobs. 400,000 hunters supporting 12,000 jobs, 
$870 million to our economy, to the economy of West Virginia 
and generated $81 million in local and state taxes.
    So when we are coming down to this, and I will ask all of 
you, who is our opposition? Where are the road blocks?
    Unless we get in our own way in the political things that 
happen here sometimes and take a different direction, where are 
you getting pushed back? Where are places we can diffuse this 
because basically I think you have answered everything. There 
are some people concerning they say, listen we don't hunt, we 
don't fish, we just like to go out and walk in the woods and 
enjoy it.
    There is not a hunter or fisherman that I know of that's 
not an environmentalist. We are out there for many, many 
reasons, not only their sport, but basically the enjoyment of 
nature.
    But where is our push back coming where some people we are 
never going to have us wanting to go in there and hunt and use 
the land? I was talking to Senator Heinrich about enhancing the 
habitat so we could all enjoy it, whether it is viewing or 
whether it is hunting or just sport shooting. Jeff we will 
start with you. Where do you think our push back is coming in 
to our degree where would that push back be?
    Mr. Crane. I would defer to the folks to my right on the 
Federal agency side. But I think Senator, that the bill goes 
out of its way to ensure that while we're talking about 
sportsmen's access for hunters, anglers and shooters, that it, 
in no way, infringes on other uses of these Federal lands and 
it no way infringes on other access for other activities on 
this land.
    I will say that, with you being a hunter and a shooter and 
an angler, there are more of the anti-use and the environmental 
extremists, animal rightists that are coming after us, 
specifically. I don't think some of the other users of the 
Federal public lands are under the same amount of pressure. And 
therefore, we're trying to take that proactive step, I think, 
in this legislation to protect that kind of access going 
forward but it's not trying to set it at an elevated level.
    So, I don't know if I can answer why there's opposition. 
We've been supportive of this for years as well. And then----
    Senator Manchin. It would have to be extreme if it is.
    Mr. Crane. It is.
    Senator Manchin. Anyone would have to be in an extreme 
position of not wanting us to be able to use public lands as 
the public should be able to use them. Ms. Weldon, do you have 
any comments on this?
    Ms. Weldon. Well, I think there's more opportunity here 
than anything else. You know, the concept in the----
    Senator Manchin. Excuse me, but have you spoken to groups 
that might show concern, might not support, might be----
    Ms. Weldon. I haven't.
    Senator Manchin. They have not gotten----
    Ms. Weldon. Yes, for the concept and what the bill 
promotes, as far as this tradition of access to public land for 
hunters, for fishers. If it's access for them, it's access for 
all citizens.
    And so again, not that our concerns are more around the 
processes we would use to achieve some of the intent of the 
bill. So that's the thing, I think, we----
    Senator Manchin. And the misnomer is a lot of people do not 
realize that most states have different hunting seasons because 
of----
    Ms. Weldon. Right.
    Senator Manchin. It is not 24/7, 12 months a year, you 
know? So it is not like we are infringing on people who do not 
want to be involved in the hunting because those seasons can be 
avoided, if needed.
    Ms. Weldon. Right.
    Senator Manchin. Mr. Ellis, any comment on that?
    Mr. Ellis. Yes. It was mentioned over here about--sportsmen 
access is a worthy investment. I would say access for all our 
publics is really worth the investment. So in answer to your 
question, so where have I push back, push back.
    I would agree with my colleague from the Forest Service 
here that on access I have not, really it's a crowd pleaser. 
Access to public land is a crowd pleaser.
    Where I have heard some concerns at times is what type of 
access. So I've had some groups that say, it should be 
motorized access. And other groups, even within hunters 
themselves, that say well, non-motorized because I have found 
that hunters, and again, I'm one of them. I hunt big game on 
horseback for the most part, alright, and others do not. And so 
there are some that see access as well it has to be motorized 
right, or it's not access.
    Senator Manchin. Right.
    Mr. Ellis. And there's other hunters and they like, as all 
of you know, a different type of experience out there. I think 
our challenge is how do we provide for all those experiences? 
How do we provide for the breadth of those experiences? What 
we're doing in the Bureau is we're doing travel management 
planning, and it's part of this travel management planning, the 
sportsmen groups have been very engaged in this. We appreciate 
them being engaged in this, to try to determine where that 
balance is on those various types of access.
    Now when somebody puts a lock on a gate, I mean that, for 
the most part, it's horse, you know, walking to ATV or pick up 
to get your fire wood or whatever.
    So I think those are the areas where we've had some of the 
real controversy. And so----
    Senator Manchin. I know we're not----
    Mr. Ellis. The solution is to work through them right 
locally with our publics and trying to identify these areas in 
our planning process.
    Senator Manchin. In our planning.
    I would like to ask you too, but I think my time has 
expired. I think I am either going to get hit with a gavel or I 
should be quiet at this time.
    So maybe if you----
    Chairman. Well, these are important questions and I 
appreciate them and have been giving everybody a little extra 
latitude because I think it is important that we get these 
issues out there.
    The balancing of the multiple uses is a really key 
consideration on our public lands and oftentimes can be very, 
very difficult as to how we balance it.
    Let's go to Senator Flake.
    Senator Flake. Thank you, Madam Chair, and thanks for the 
testimony.
    Senator McCain and I have been hearing from the Park 
Service and Arizona Game and Fish, among others, about the 
growing challenges of managing the bison herd in Grand Canyon 
National Park. By some estimate the herd now exceeds 600, and 
they have more or less found sanctuary within the park where 
hunting is not allowed.
    Unlike traditional bison that we generally think of my 
understanding is that these are a crossbreeds buffalo and 
cattle, sometimes called beefalo because of their size and lack 
of resources they are really wreaking havoc there. The Park 
Service has issued a proposal that is currently under 
consideration to lethally and non-lethally kill the herd. I am 
just wondering, there have been proposals, and I will address 
this to Mr. Fosburgh, to allow volunteers to go in and hunt, 
and it would certainly decrease the cost and likely be as or 
more effective. Do you want to talk about that for a bit?
    Mr. Fosburgh. Yes, you know, I'm not that steeped in the 
actual situation in the Grand Canyon, but I think in general to 
the extent that you can get volunteers to get hunters out there 
doing this sort of stuff. It saves the Government money. It 
achieves the end result and it keeps people engaged and 
provides meat either for those hunters or for needy causes 
locally.
    So I think that we, as a community, ought to be used more 
often. Obviously we'd need to be supervised and you can't have 
bad actors out there doing this stuff, but I think the agency 
certainly should have the ability to do that. And they ought to 
use hunters as a resource.
    Senator Flake. This is not unprecedented. Senator Udall 
actually proposed doing this to help with regard to the 
overpopulation of elk in the Rocky Mountain National Park. So 
it has been proposed and utilized elsewhere. I hope it will be 
considered. Any thoughts on this, Mr. Ellis?
    Mr. Ellis. If I could, Senator Flake, I'd like to pivot to 
Mr. Wilson of the Park Service here to address that issue.
    Senator Flake. Alright.
    Mr. Wilson. Senator, respectfully, I'm just not prepared to 
address that issue today, but we're very aware of that issue 
and if you don't mind we'll get back to you on that.
    Senator Flake. I would appreciate that greatly.
    Mr. Wilson. Thank you.
    Senator Flake. Thank you, sir.
    Senator Flake. Mr. Ellis, you mentioned in your testimony 
and again just a bit ago that 99 percent of BLM managed lands 
are open to hunting, recreational shooting. What impact do 
monument designations have on that overall percentage?
    Mr. Ellis. I have the numbers for the monument, for 
monuments and I believe it's 95 percent of our national 
monuments are open.
    But here's from my experience. These special designated 
areas, such as national monuments, these are areas that hunters 
and fishermen and women, sportsmen and women like to go to many 
times. In most cases they have quality habitat. They have 
quality streams and fisheries. So these are areas that they 
like to go.
    And so I believe that these are areas that, regardless of 
the designation, that we should do our best to keep them 
available to sportsmen and women for hunting and fishing.
    Senator Flake. The concern is, let's take Ironwood for a 
minute. And Mr. Crane, if you could address that, you mentioned 
the Ironwood Monument designation and the restrictions that 
come with that. Do you want to elaborate?
    Mr. Crane. Yes, Senator. Prior to you arriving here I also 
brought up the case of the Sonoran and the proposed 
restrictions or banning, complete banning of recreation, 
disperse recreational shooting. I know from your state, in 
particular, it gets worrisome because that systematic closure 
starts to go around the entire population center of Phoenix, 
Arizona. The further somebody has to travel to hunt, to fish, 
or to recreationally shoot, the less inclined they're going to 
be to continue to do it, especially those folks that aren't as 
passionately committed as some of us are.
    So the issue is real. The issue has got real long lasting 
permanence. And therefore, again, I think, the intention of 
this bill is to try to put the onus back on to say where are 
the reasons for this. And we are concerned about the situation 
in Arizona.
    Senator Flake. I appreciate that, and I just want to note 
that we hear a lot about this. As mentioned, people want to 
obey the law and we need to make sure that we keep that in mind 
as we consider such designations.
    So, thank you, Madam Chair.
    Chairman. Thank you, Senator Flake.
    Senator King?
    Senator King. Thank you, Madam Chair, and thank you for 
your leadership on this important bill. I hope this is the year 
that we are going to be able to put it over the goal line.
    Mr. Ellis, in Maine we have had a presumption for many 
years that the land is open unless closed. It goes back to the 
colonial ordinance of 1641 when Maine was part of 
Massachusetts, a period we refer to as the Dark Times. 
[Laughter.]
    But is that the presumption on the Bureau of Public Land 
land? Is it presumed open unless specifically closed?
    Mr. Ellis. Well, Senator, the Dark Times, I'll have to read 
up more on that. [Laughter.]
    And they still have the state park up there, Baxter State 
Park?
    Senator King. Yes, sir.
    Mr. Ellis. That's still up in Maine.
    Senator King. Yes, sir.
    Mr. Ellis. I have to get up there yet. I heard it's a 
pretty area.
    Really, you know, it depends on the use. For hunting, yes, 
I mean, hunting areas, as we said, 99 percent are open unless 
they are designated closed they are open and likewise for 
recreational shooting. We have areas that we have closed for 
recreational shooting that are still open for hunting.
    Menan Buttes in Eastern Idaho is one of those areas where 
we have a lot of traffic. It's a very popular area. I think we 
had like 15,000 people up these trails in a 6-month period of 
time, and it was an area for shooting, for recreational 
shooting, target shooting.
    And so, we did deal with that through a public 
participation process. Yet the area remains open for hunting. 
It's an area that the State, Idaho Fish and Game, they still 
are the ones that regulate that hunting and we respect that.
    But with that said, the process that we use to look at 
these areas is our land use planning process. It's a full 
public participation process that when we look at this on a 
broad scale. If we're looking at closures, say to recreational 
shooting, those also are a public participation process. And I 
talked about that a little earlier this morning in some of the 
discussion.
    So I guess in short, when we look at these areas and when 
we close these areas it's primarily for public safety. And if I 
look at the experiences I've had, it's primarily for public 
safety, sometimes there are some resource issues such as in the 
Sonoran National Monument where I was about three weeks ago, 
that Mr. Crane referred to. Down there, there were some 
resource issues that we dealt with. But really that's the 
process. That's the process that we go through.
    Senator King. Good. Thank you.
    Madam Chair, I just want to, for the record, note that many 
of the provisions of this bill are particularly applicable in 
the West. The Eastern part of the United States, Maine in 
particular, has very little in the way of Federal public land. 
We have some. We have the Moose Horn Refuge, a little tiny 
piece of the White Mountain National Forest. On the other hand 
these issues, hunting and fishing, are tremendously important 
in our state both culturally, historically and economically, 
and I applaud you for it.
    I know that you are working on the National Fish Habitat 
Preservation Program. Hopefully, is there a possibility that 
will be folded into this bill?
    Chairman. We are continuing to work on that, and I 
appreciate the assistance that we have received from many in 
trying to find just that right space.
    Senator King. Well certainly I would like to be associated 
with that. I think that has been an important program in Maine, 
and I think it is an important one for the country.
    I have to tell one funny story. When I was Governor of 
Maine in 1997 the Internet had just begun a few years before 
and I told our Inland Fisheries and Wildlife I wanted people to 
be able to get hunting and fishing licenses online by January 
1997. At my State of the State address they say, oh yes, 
Governor, we'll do that. I made the address, and said you could 
do it. I found out later, in fact, you could, but when you sent 
in your application online, because we really did not know how 
to do these things, it turned into a fax at the Inland 
Fisheries and Wildlife. It then went through and you got your 
license.
    We were the second state in the United States to be able to 
get hunting and fishing licenses online, and I think it was a 
kind of example of can do. I think we have to be thinking 
always and I am delighted that we got the duck stamp online 
last December, other ways that we can make these services and 
drive down the paperwork, if you will, of being able to access 
the out of doors for these important, important, recreational 
opportunities that mean so much to many of our states.
    So I want to thank you for your leadership on this bill, 
and look forward to working on it with you. If there are other 
provisions that are of importance to us like the Habitat 
Partnership Program, I want to be sure they are included if at 
all possible. Thank you.
    Chairman. We look forward to working with you as well. 
Thank you.
    Let's go to the Senator from North Dakota, where they 
probably have a little bit of hunting and fishing and shooting 
going on up there.
    Senator Hoeven. Thank you, Madam Chairwoman.
    We have tremendous hunting and fishing, and I enjoy it 
myself very much as do all our citizens and many others.
    I would like to and I am pleased to be a co-sponsor on this 
legislation and look forward to passing it soon, I hope, with a 
good, strong, bipartisan vote.
    Mr. Crane, I would like to start with you as President of 
the Congressional Sportsmen's Foundation. What is the economic 
impact, nationally, from hunting and fishing in a year and how 
much do you think we can actually increase that economic impact 
with this kind of legislation?
    Mr. Crane. According to the last survey it was $90 billion 
collectively, nearly 40 million anglers and hunters.
    And as you're well aware, there are taxes on the equipment, 
excise taxes that are dedicated and go back to sport fish 
restoration and wildlife restoration. There are permits and 
fees that the state wildlife agencies collect. So the economic 
backbone of conservation in America is supported by hunters and 
anglers.
    Unfortunately the trend has been rather static or over a 
longer period of time, declining. And I think that all the 
aspects that we have been talking about in this room could 
hopefully help to change this. I think this bill gets directly 
at some of those key things which are access and opportunity. 
Without those, we are not going to have that growth we need to 
keep the young people engaged and bring them out. And so I 
appreciate you co-sponsoring this bill.
    Senator Hoeven. So economic impact right now, $90 billion 
from hunting and fishing. And you think with this expanded 
access that this legislation provides, we could increase that 
further, correct?
    Mr. Crane. Yes, sir.
    Senator Hoeven. I want to start with Mr. Fosburgh at the TR 
Conservation Partnership, but then go to both Mr. Ellis at BLM 
and Ms. Weldon at the Forest Service. With this expanded access 
talk about how we can do that. How do we make that happen? What 
do you think that your organization can contribute to making 
that happen? Mr. Fosburgh?
    Mr. Fosburgh. Well we are a coalition of 40 plus different 
organizations, all of which, I think share the goals of 
increasing access and making sure we have a lot of fish and 
wildlife when we get there.
    I think that this bill, the Sportsmen's Act, is an 
important first step in getting there. It's not a silver 
bullet, and there's going to be a bunch of stuff that needs to 
get done to, you know, we talked about tax incentives got 
mentioned. That's going to be an important aspect to conserving 
private lands.
    National things like fire funding and how we fund wildfires 
and having that money freed up for actual management of our 
national forests which will be great for fish and game. That's 
another part of it.
    So I think that this is one step. It's not the only step, 
and I think that, collectively, if we work at all these things 
together, we can push this over the finish line because this is 
just too important not to do, and it benefits everybody.
    Senator Hoeven. Ms. Weldon, from the standpoint of the 
Forest Service, and Mr. Ellis, from the standpoint of BLM, what 
can you do to help implement that public access if we are able 
to pass this legislation?
    Ms. Weldon. And an important part is the reauthorization of 
LWCF, you know, that is our key tool. And with the goals for 
this next President's budget to look at making that mandatory 
and having some specific set asides for access. That puts us in 
a place where we can work through, you know, with lots of 
partnerships and input from communities, the priority places 
that we want to continue to pursue that access by having that 
additional funding or staffing support to keep pursuing what we 
know is critical access.
    Senator Hoeven. The Land and Conservation Fund is what you 
are talking about?
    Ms. Weldon. The Land and Water Conservation Fund, yes, 
LWCF.
    Senator Hoeven. Okay. Mr. Ellis?
    Mr. Ellis. I would agree with my colleague that fully 
funding the Land and Water Conservation Fund would be key. 
Again, in my career, I'm trying to think of partials that we 
acquired under LWCF that did not increase public access, and I 
can't think of one. And so, it is very important.
    Senator Hoeven. How about public access on existing lands? 
What can you do there?
    Mr. Ellis. That's part of where we use groups like the 
Federal Lands Hunting, Fishing and Shooting Sports Roundtable, 
you know, the Wildlife Hunting and Heritage Council, our local 
groups and our other publics to work with our local line 
officers to try to identify and prioritize those areas. And in 
all the areas that we have private land and try to help them 
determine what should these be priority areas be for access?
    We have limited funds and we have a certain amount of 
staffing, so what we have to do is prioritize that. I think 
that's important that our publics help us do that. That our 
sportsmen, included, identify what areas are most important to 
them and help us set those priorities.
    Senator Hoeven. Set priorities. Ms. Weldon? Same question. 
How can you help create more access on existing lands?
    Ms. Weldon. There's a very large work load associated with 
gaining access from private to public or public to private that 
has so much to do with two things. One is finding those willing 
landowners who will work with us to establish and sustain 
access. Sometimes we find that to be a challenge. But also for 
us to be able to have the staffing that can consistently turn 
its attention to pursue that. So the relationship back to how 
we look at where we find that funding. How might fixing our 
funding fire can provide some additional support for our staff 
to get that work done on the ground.
    Senator Hoeven. Okay, thank you. I appreciate it.
    Chairman. Thank you, Senator Hoeven.
    I have one final question and then I know that Senator 
Heinrich has one as well. I appreciate the time that you all 
have given us here this morning. I think there has been some 
good coverage on the issues that have been presented.
    I am not satisfied though with what I have heard in the 
discussion about the filming on our public lands. I am trying 
to understand whether or not we've got consistent application 
because I think some of the frustration is that you, perhaps, 
have differing interpretations of what commercial might be or 
just what the understanding and directive is.
    I believe it was you, Ms. Weldon, who responded when the 
question was asked by Senator Cantwell about filming on our 
wilderness lands. I think you also pointed out, Mr. Ellis, that 
access to the wilderness and to the wilderness study areas for 
purposes of some form of commercial filming and making sure 
that we don't impact, have impact, or negatively impact the 
wilderness values. I think you used the term, Ms. Weldon, that 
it is promoting the value of wilderness.
    Just because we have so much wilderness in Alaska, we have 
more than all the other states combined, there are big spaces. 
And when I think about the value of wilderness, I think about 
how difficult it is to access some of that wilderness. I know 
that some of my colleagues have had the benefit of being able 
to do that.
    I also recognize that some of my colleagues, like Senator 
Heinrich, who are very fit are able to climb mountains and hike 
back to places that other people will never be able to have 
access to. So the ability to be able to see it because we have 
had those who are able to provide that access through the 
visual is so important to us.
    I understand the concern about making sure that we do not 
have impact on these wilderness values, but we have to be able 
to see that. Making sure that is allowed has got to be a 
priority as well.
    I need to understand what is coming out from the Forest 
Service in terms of the directive. When we had Chief Tidwell 
before the Committee last week or the week before, he indicated 
that it was coming out shortly. What I was trying to get from 
him at that time was can you give us some indication as to what 
will be allowed particularly as it relates to individual and 
small, independent film operators. As you know in our measure, 
we are seeking to effectively have a diminumus number of folks 
that would not be required to have these permits, to pay these 
fees. So I am looking for some guidance from you all as to 
where you are going to be taking it.
    Ms. Weldon. Thanks very much for that question.
    Overall, we are finished with our public engagement and 
scoping on this directive. We received close to 5,000 comments. 
Based on the concerns that were raised last autumn we also 
added a number of public engagement sessions where we were able 
to speak with the people who had these direct concerns about 
what's the best way for us to put together a directive that is 
well understood, you know, is interpreted in such a way that 
folks would know what they would be required to do if they were 
involved with commercial filming.
    So as it relates to small operators, in the bill, there's a 
proposal that for five and under there would be a flat fee of 
$200, and then also that there would be requirements for 
checking in 48 hours ahead of time and then let the groups go 
and do their thing.
    We agree that we can make this very efficient, but want to 
make sure that, as we're understanding the activities that a 
group of five or smaller might be doing, that they are doing 
those in line in such a way that ensures resource protection. 
Our experiences when we work with folks looking for this 
activity, they cooperate with us extremely well. But we want to 
make sure that we're not setting ourselves up to have a group 
go out once they've paid that fee where we can't fully assess 
for the impacts. That's what we wanted to do.
    Chairman. Well, what are you afraid of? What are you afraid 
they're going to do?
    Ms. Weldon. Well, for example, if he goes out with a crew 
of five they could come with substantial other props and gear 
to locations that may not be the best place to have that occur. 
So we want to at least be able to put them in the best position 
to be successful.
    And the 48-hour notice piece, you know, if a group comes on 
a Friday it may not give us the ability, you know, by the time 
they get there to say that, wow, if we knew you were going 
there, we would have asked you to go here for the same thing, 
but reduce the impact to this resource or to this other 
activity going on. So what we're looking for is just the 
ability to----
    Chairman. Then you are basically prescribing where you are 
going to go in that area to film. If again, what you are trying 
to show people through the eyes of the lens is an area but you 
say, well, we only want to film this. That is all we are going 
to be able to see is what you are telling us to film.
    Ms. Weldon. Well----
    Chairman. So again----
    Ms. Weldon. I don't think our intent is to say look this 
way, don't look that way. It's just to make sure we're not 
creating a conflict if we can avoid it. So we think there are 
vast opportunities for folks----
    Chairman. It sounds like you are making a lot of work for 
yourselves.
    Ms. Weldon. Well, if we want it to be something that we 
ensure we can continue doing by not having entities that we 
don't know where they cause a level of impact or damage that--
--
    Chairman. But if you've got three or four individuals who 
are basically packing their gear----
    Ms. Weldon. Right.
    Chairman. On their back.
    Ms. Weldon. And that would be an instance where we would 
say, go do your thing. We would be more concerned if a group 
were to go and they had different types of gear and equipment 
and went and caused an impact that we could have prevented if 
we knew about it.
    So, not trying to add more process in, but we just want to 
make sure we, along with whomever is looking for that 
experience, can see what it means for us to take care of that 
resource while we're out there.
    Chairman. Well, I would like you to look very critically at 
what we are proposing because I think it is imminently, 
imminently reasonable when you have five or less. Again, 
limitations in terms of what it is that they are bringing in.
    If you are, from an agency perspective, going to say we 
only want you to see this over here, and we don't want you to 
allow----
    Ms. Weldon. Yes and next----
    Chairman. Access.
    Ms. Weldon. Right.
    Chairman. It is not like you have a big Hollywood film 
crew.
    Ms. Weldon. Correct.
    Chairman. What you have are those who are committed to the 
resource, who have a passion for the land, who want to share it 
through the lens of a camera with others who will never be able 
to experience that. I do not want our agencies to be viewed as 
the choke point.
    Ms. Weldon. No, that's----
    Chairman. And limit access that way.
    Let me go to my colleague for his final questions.
    Senator Heinrich. I want to thank the Chair for her 
questions on this. I think we share a fairly similar approach 
on this issue. I know a number of folks who film outdoor shows 
in these wilderness areas and wilderness study areas.
    I think the key issues are one, the tools. None of us want 
a big cherry boom in the middle of the Gila wilderness, and 
limiting that with what people can carry in terms of a tripod 
and handheld equipment is a very effective way at getting at 
that. If I am hunting in the back country and I want to take a 
tripod with me, I can do that.
    The other piece of this that I think may be problematic is 
you spoke to, sort of, the intent of the content of a show or 
of something that is filmed. I really think we have no business 
being in that area. When you film in a low impact way in these 
places, even if you never use the word wilderness, what you are 
really doing is educating people about wilderness. They see 
this resource that is unique.
    I do not think we should get in the business of saying that 
we will allow you to film a documentary on Aldo Leopold in 
McKenna Park in the Gila Wilderness, but we will not let you 
film a hunting show on how great the elk resource is in the 
Gila National Forest if you do not use the word wilderness. I 
think both of them are equally valuable.
    I want to move to the access issue, but maybe first, just 
say a word or two about the national monuments, the 
recreational shooting and hunting. I want to give a shout out 
to the BLM because we have two new national monuments that are 
BLM-managed in the state, Rio Grande Del Norte in the North 
along the Rio Grande Gorge and Organ Mountains-Desert Peaks in 
the South. Both were community-driven efforts. Both are open to 
hunting and fishing, although good luck fishing in Organ 
Mountains-Desert Peaks.
    I have certainly hunted in Organ Mountains-Desert Peaks. We 
have Javelina in New Mexico. We are one of the few states that 
have that resource, and a lot of people hunt for deer in that 
area as well. One of my friends, who owns a fly shop up in Rio 
Grande Del Norte, got an enormous bull elk last year on the 
monument. Part of the reason why those efforts came together 
and why people chose to make them Bureau of Land Management 
monuments was because of that support for hunting and fishing 
and having a little bit different approach on those issues in 
particular. So I urge you to keep that issue up.
    Mr. Ellis, one of the things that does concern me on this 
access issue is that there is so much variability from district 
to district on how to solve these things. I have heard that 
from other states as well as from users in my state. We have 
had some great successes in New Mexico, opening up some areas 
that previously were inaccessible, private, or public Bureau of 
Land Management lands that you couldn't get to legally and full 
stop.
    We have also seen that the prioritization of that issue and 
the regularization of how to deal with those issues really 
varies dramatically. I am wondering if the Bureau has taken any 
steps to, sort of, regularize that work across the system to 
learn what has worked and maybe apply it in the places that 
have been less successful?
    Mr. Ellis. Well, Senator, again what I've learned in my 
travels is that the relationship between the field managers, 
the field office manager and a local district manager in the 
BLM with local land owners and with the community are so key. 
It's a lot about relationships. So much is about successful 
relationships, internally and externally.
    And so, you know, Director Kornze and I are going to put 
great emphasis when we select people for these type of 
positions on those skills and being able to work with the 
communities, being able to work with the publics to have those 
traits that are so important everywhere we manage public lands.
    And so communications, leadership and communications, a 
willingness to work with local communities, those are some of 
the traits that we will be looking for whether it be Mexico, 
Alaska----
    Senator Heinrich. Obviously, Mr. Ellis, I am running out of 
time, but I would say that in some places I absolutely agree 
with you that those relationships are key but there has been an 
enormous interest in solving this issue in some districts and I 
would say a lack of interest in others. I think getting the 
facts on the table as to the areas that are inaccessible and 
making us look at this is a data driven way which will help us 
solve many of these issues. Thank you.
    Thank you, Madam Chair.
    Chairman. Thank you, Senator Heinrich.
    I look forward to working with you as we move forward on 
this bill.
    To Mr. Ellis and Ms. Weldon, we look forward to working 
with your agencies. You have identified some areas that you 
want to work with us on, and I will take you at face value on 
that.
    I also greatly appreciate the many coalitions that have 
stepped up and helped us with this. It has been a very, very 
broad effort and has been noted by many at the Committee today, 
an effort that has gone on for quite some time and we would 
like to see some resolution with this.
    I do think that it was telling this morning that we had 15 
members of the Committee stay for a long period of time. I 
think it clearly demonstrates the level of interest in this 
issue.
    I think Senator Risch was the first one to remind us that 
when we do more to encourage our young people to experience our 
public lands, whether it is through hunting or fishing or 
recreational shooting, just getting them outside, our kids are 
better. Our kids are healthier, I think, when we have a greater 
connection to our land. Doing so in a way that is fun, doing so 
in a way that shows respect for the land, doing so in a way 
that allows a teaching and a training from father to daughter 
as my father taught me or mother to son, as I did my sons and 
who are now re-teaching me how to be a better shot, I should 
say. I think about those experience as some of the best times 
that I have had with my father have been as we were running up 
the slough looking for just that spot to wait for the birds to 
come in on that early morning or to be walking quietly through 
the fields with my son, not saying a word but just being 
together with an activity that meant so much to us. I want to 
make sure the access that I have had and that my sons are 
seeking continues for a long, long time.
    We know we have some amazing public spaces, but we have to 
make sure that we do not get in our own way in providing 
access. Whether it is by way of saying well, we are worried 
about litigation or there have to be so many hoops that you 
have to jump through and the bureaucracy that is involved makes 
it so difficult that it deters people or that there are fees 
that are just simply too much.
    As was pointed out earlier, we have an amazing system here 
in the United States with our public lands. Let's make sure 
that public really means public, and that multiple use really 
means multiple use. This is a big challenge for you in the 
agencies because just as I want to be able to enjoy my snow 
machine, I have got my cross country skier neighbor who wants 
the solitude there. These are big challenges for us, but they 
are not irreconcilable. It is only when we stop and say it has 
got to be this way and we are not involving the public in it 
that we cannot do better.
    So I look forward to working with all of you, but I am 
very, very serious that we are going to push. We are not only 
going to push hard, we are going to deliver on this sportsmen's 
bill. It is an issue that we have been working on for far too 
long. Its time, truly, has come. Our young people deserve the 
opportunities that so many have had, and I want to work to 
ensure that they continue to have that.
    So thank you for the time that you have given us this 
morning, and look forward to working with you.
    With that, we stand adjourned.
    [Whereupon, at 12:27 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
